<html>
<title> - STATE, FOREIGN OPERATIONS AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
   STATE, FOREIGN OPERATIONS AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2019

                              ----------                              


                        TUESDAY, APRIL 24, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 3:20 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Lindsey Graham (Chairman) 
presiding.
    Present: Senators Graham, Leahy, Durbin, Hyde-Smith, 
Shaheen, Lankford, Coons, Van Hollen, and Merkley.

               U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

STATEMENT OF HON. MARK GREEN, ADMINISTRATOR


              opening statement of senator lindsey graham


    Senator Graham. The subcommittee will come to order. Sorry 
we were late. We were at the lunch at the State Department for 
President Macron and we are Republicans, we should know how to 
run things. We are an hour and a half late. So we got to up our 
game.
    Senator Leahy is on the way. He said go ahead and start. 
Thank you for coming, Mark.
    We have a new Senator, Senator Hyde-Smith, on the 
subcommittee. I want to welcome her.
    The 2019 budget proposal from the administration will not 
make it. We are going to kill it and replace it with something 
that makes more sense.
    If you send a rescission package over here from the House 
that guts the State Department, we are going to kill that, too. 
So I just want everybody who knows about this account and cares 
about this account, that Senator Leahy and my colleagues on the 
subcommittee, Republican, Democrat, are going to protect this 
account. We will make it better. We will make it more 
efficient.
    We are always in the market for trying to make things 
better. But it's 1 percent of our overall spending, foreign 
assistance in general. General Mattis said it better than 
anybody: if you cut the State Department's operational budget 
you need to buy me more ammo. He said that when he was head of 
CENTCOM.
    So to the administration, we want to work with you where we 
can, but I reject the whole attitude that is being displayed 
about developmental assistance. Being a military pretty hawkish 
guy, you can never hold and build without a presence of the 
private sector and a follow-up force that the leader of it will 
always be the State Department.
    The USAID budget, we can always make it better. Really, I 
appreciate Mark's leadership over the years. Anything you can 
do to make the USAID portion of the State Department more 
efficient, please let us know.
    But I want to let you know that all those who work on your 
behalf and all the people and the foreign nationals who help 
us, we appreciate it, and that you and those under your 
leadership serve in very dangerous places and I think some of 
your biggest fans come from the military itself.
    So, with that, I'll go through the comparison, the 2018 
budget. It's about a 30 percent cut, 26 percent over the 2018 
enacted level, about 30 percent over the fiscal year 2017. I'm 
sure, Mark, you just got your marching orders.
    But with that, do you want to say anything, Senator Durbin? 
Senator Leahy is on the way. When he comes he can make an 
opening statement. So I'll turn it over to Administrator Green.


                  summary statement of hon. mark green


    Mr. Green. Thank you, Senator. Thank you, Mr. Chairman. 
Ranking Member Leahy and Members of the subcommittee, thank you 
for this opportunity to summarize my written testimony, which 
you have.
    I would like to begin by welcoming the nomination of 
Director Pompeo. We have had an opportunity to initially 
discuss how development and diplomacy go hand in hand, and I 
look forward to working with him closely should he be 
confirmed.
    In the meantime, as you alluded to, Mr. Chairman, at USAID 
we have urgent work to do. From unprecedented humanitarian 
challenges, to exciting development opportunities, I believe 
our work has never been more important.
    That's certainly been a clear take-away from my travels 
over these last 8 months. I have just returned from Peru and 
the Summit of the Americas. While there, Acting Secretary 
Sullivan and I had an opportunity to meet with courageous pro-
democracy activists from Cuba. They shared with us that this is 
a critical moment in Cuba's history and urged us to support 
seeds of true liberty and democracy, not only for Cuba, but for 
Venezuela and elsewhere.
    In fact, Mr. Chairman, much of the recent Summit focused on 
Venezuela. The Vice President and I announced $16 million for 
our humanitarian response to the flight of Venezuelans from the 
despotic Maduro regime.
    The displacement of families is unprecedented in Latin 
American history. What makes the tragedy even more painful is 
that it is entirely man-made. It is caused by the regime's 
continued mismanagement and corruption.
    And similar forces are causing humanitarian crisis in 
nearly every corner of the globe. Near famines continue to rage 
in Nigeria, Yemen, Syria and Somalia. Again, all man-made. As I 
know you agree, in order to fully respond to these crises we 
must address their underlying causes.
    Just as we lead the world in humanitarian assistance we 
should also lead in our commitment to democracy, human rights, 
and responsive governance.
    Our fiscal year 2019 request includes funding for our 
democracy and governance programs in Venezuela that support 
civil society, a democratically elected legislature and the 
free flow of information.
    Last month I addressed the U.N. Security Council on the 
humanitarian crisis in the Democratic Republic of the Congo. I 
urged the Kabila Government to hold credible and inclusive 
elections by the end of the year. And I'm deeply concerned, as 
I know you are, over the reports of horrific human rights 
abuses in Burma's Northern Rakhine State. I will soon be 
traveling to Burma and Bangladesh myself to assess the 
situation firsthand.
    Members of the subcommittee, I've had a chance to discuss 
with many of you the rising negative influence of Russia and 
China. Many of you have noted a disturbing global trend toward 
repression of basic liberties.
    In response, our fiscal year 2019 request includes targeted 
investments in Europe, and in Eurasia that support democratic 
institutions and civil society while countering the Kremlin's 
influence. We also recognize that China's investments in 
developing countries are rarely aimed at actually helping those 
countries achieve economic independence. Often they come with 
strings attached. We must offer these countries a better 
choice. We should offer to help them on their journey to self-
reliance, not burden them with unsustainable indebtedness.
    Members of the subcommittee, the fiscal year 2019 request 
for USAID's fully and partially managed accounts is 
approximately $16.8 billion. This represents $1.3 billion more 
than requested last year, including $1 billion for humanitarian 
assistance.
    We acknowledge that this request will not provide enough 
resources to meet every humanitarian need or seize every 
development opportunity. Indeed, no budget in modern times has. 
This request attempts to balance fiscal needs at home with our 
leadership role on the world stage and our work has never been 
more important or dangerous.
    In April alone, we have seen humanitarian workers killed in 
South Sudan and Yemen, simply for trying to ease the suffering 
that pervades both countries. We are committed to taking every 
step to extend the reach and effectiveness of our taxpayer 
resources and to protect our staff and partners.
    We are also committed to working closely with this 
subcommittee to ensure that your ideas are reflected in our 
agency's transformation plan.
    Finally, I would like to say a word about recent published 
reports of sexual abuse and misconduct by aid workers. Like 
you, I am deeply troubled by the allegations. Needless to say, 
exploitation, sexual exploitation violates everything that we 
stand for as an agency. I have met with our partner 
organizations to make absolutely clear that USAID will not 
tolerate sexual harassment or misconduct of any kind. We have 
taken numerous other steps and we will do whatever else it is 
that we need to do. And I assure you that this is an issue that 
I am personally tracking.
    With your support and guidance, we will ensure that USAID 
remains the world's premiere international development agency. 
And with that, thank you for the opportunity to appear and to 
testify and I look forward to your questions. Thank you.
    [The statement follows:]
                 Prepared Statement of Hon. Mark Green
                              introduction
    Mr. Chairman, Ranking Member, Members of the subcommittee, thank 
you for this opportunity to discuss USAID's fiscal year 2019 budget 
request.
    The fiscal year 2019 request for USAID fully and partially managed 
accounts is approximately $16.8 billion. This represents $1.3 billion 
more than requested last year. It requests $6.7 billion for global 
health and $5.1 billion for economic support and development. In terms 
of USAID's humanitarian assistance, it requests over $1 billion more 
than last fiscal year's request. In total, it requests approximately 
$3.6 billion for International Disaster Assistance.
                           meeting priorities
    Since I arrived at USAID in August, I had a chance to meet with 
many of you. We discussed many of the challenges in the world today, 
and you shared with me your priorities. Since then, we've been hard at 
work at USAID to advance those shared priorities and position the 
Agency for its crucial role in U.S. foreign policy.
    Our work has been informed by many of the travels I have 
undertaken, meeting our teams and partners around the world. I have 
traveled to Ethiopia, Sudan, and South Sudan, where I saw USAID leading 
the world's response to the continuing humanitarian need in East 
Africa. In Ethiopia, I also saw our efforts to foster resilience to 
help that country withstand the future crises that very likely will 
come.
    I have traveled to Mexico and India, where I met with our partners 
from both the public and private sectors. It was there that I saw 
glimpses of an exciting future for international development, where 
programs are more private-enterprise driven and our role is 
increasingly to use our skills, experience, and innovative know-how to 
help countries chart their own journeys to self-reliance and 
prosperity.
    In Iraq and Syria, I met with some of our military leaders. 
Together, we toured Raqqa, and I learned more about USAID's joint 
effort with the State Department and Defense Department to restore 
essential services to communities newly liberated from ISIS. In 
Switzerland, the United Kingdom, and Germany, I met with international 
partners, including a senior leader from Israel's Foreign Ministry, to 
share some of the new innovations in programing and policy we are 
applying to our work in development and humanitarian assistance, and to 
discuss areas of future cooperation. I also took the opportunity to 
encourage our fellow donors to take on a greater role in helping to 
meet the world's growing needs.
    In Germany, I met with our Mission Directors from the Middle East 
and Africa--as well as their counterparts from the State Department and 
DoD--to discuss how we can strengthen interagency cooperation. At the 
Munich Security Conference, I heard Vitali Klitschko, the Mayor of 
Kiev, speak about Ukraine's fight for freedom and democracy. I was 
reminded that we, too, were once a young nation inspired by the hope of 
a democratic future, but also confronted by numerous challenges as we 
strived to build our republic. As I listened to Klitschko, I was 
immensely proud of the work that USAID does to support people, all 
around the world, like him and the heads of the Euromaidan movement who 
aspire to freedom and citizen-responsive governance.
    In February, we announced USAID's new Mission Statement. It 
includes an explicit commitment to strengthening democratic governance 
abroad--a priority that I know from our discussions you share. This 
commitment has informed USAID's work from our creation; and under my 
leadership, it will continue to do so. Our fiscal year 2019 request 
includes targeted investments in Europe and Eurasia that will support 
strong, democratic institutions and vibrant civil society, while 
countering the Kremlin's influence in the region. In Venezuela, we will 
support those who are working for a free and prosperous future. We have 
requested robust funding for our democracy and governance programs in 
Venezuela that support civil society, the democratically elected 
legislature, and a free flow of information there. And in fiscal year 
2019, we have requested funds to explore and implement more effective 
approaches to promoting ethnic and religious tolerance in Burma, 
including in Rakhine and Kachin States, and to help meet the needs of 
minorities in Iraq ravaged by ISIS, including those targeted because of 
their faith.
    I have also met with people from across these United States. I have 
been to New York, Texas, Delaware, Iowa, and even my home State of 
Wisconsin. I have met with the Chamber of Commerce Foundation and 
spoken with business leaders, CEOs of American firms. All of them are 
eager to find ways to align with and enhance USAID's work, as well as 
invest in the rapidly growing markets that are most often the targets 
of our programing. I have met with researchers from American 
universities who are helping us tackle devastating challenges like the 
Fall Armyworm in Africa. I have also met with American implementing 
partners--contractors and grantees, faith-based organizations and for-
profits--to explore ways we can improve our operations.
    On top of all that, I have been ``traveling'' internally, leading a 
broad agency Transformation effort through which we are re-examining 
nearly every aspect of our operations and structures in order to make 
sure we are as effective, efficient, and accountable to American 
taxpayers as possible.
     overview: a fiscally responsible budget for challenging times
    Mr. Chairman, Ranking Member, and Members, this is the first time I 
have had the honor of presenting the President's budget. However, it is 
not the first time we have met with your offices to review the needs we 
see in the humanitarian and development sectors. We have also reached 
out to you and your staff to discuss our growing work in conflict, 
post-conflict, and otherwise fragile zones. I note that this request 
would fund important efforts, such as the urgent work we are 
undertaking to help communities newly-liberated from ISIS's evil reign 
by restoring essential services to places like Raqqa.
    We acknowledge that this budget request will not provide enough 
resources for us to meet every humanitarian need or seize every 
international development opportunity. In truth, no Federal budget in 
recent memory would be large enough to do so, and we would not suggest 
it wise to try to do so. We come to you with a budget request that aims 
to balance fiscal responsibility here at home with our leadership role 
and national security imperatives on the world stage.
                    optimizing resources and results
    Mr. Chairman, Ranking Member, and Members, we are committed to 
taking every prudent step to extend the reach and effectiveness of our 
taxpayer resources. We are working closely with the Department of State 
to encourage other donor nations and recipient countries themselves to 
increase their own contributions to the overall humanitarian and 
development effort. This includes efforts at strengthening domestic 
resource mobilization programs so that partners can more effectively 
finance their own development in the future. We are rethinking and 
streamlining our humanitarian assistance. We are taking steps to ensure 
our programs and procedures are more private enterprise-friendly so we 
can better leverage our resources, bring new ideas and partners to our 
work, and increase opportunities for American businesses. Through 
procurement reform, we are striving to become more flexible, and 
responsive and innovative in meeting humanitarian and development 
objectives, so our implementing partners can extend and improve the 
reach of USAID-supported initiatives. We are also striving to more 
closely align our resources with USG strategic needs, and are focused 
on measurement and evaluation to support that alignment. Finally, we 
are using the opportunity of our Transformation to ensure that our 
programs are of the highest quality and fully reflective of America's 
key foreign policy priorities.
                     encouraging others to do more
    As the President has said, ``America first does not mean America 
alone.'' We can and do embrace opportunities to partner with others and 
we expect others to do their part in tackling challenges that affect us 
all. Working with the State Department, we are using every opportunity 
to push our donor partners to do more in helping to mobilize 
resources--including increasing their financial contributions.
    To put things in context, in 2016, the U.S. provided nearly $34.5 
billion in Official Development Assistance (ODA), almost one quarter of 
all ODA. In terms of humanitarian assistance, the U.S. continues to be 
the largest single donor. Our leadership role as a donor is a point of 
pride. It is part of our national character--our readiness to stand 
with other countries and peoples when crisis strikes. But leadership 
also means leading others to do more and setting the expectation that 
other donors will do their fair share to advance shared priorities, 
while also expecting improved performance by implementing partners, 
including the U.N., to maximize the benefit for recipients of 
assistance.
    We've recently seen a number of key allies increase their ODA 
contributions. For example, the Republic of Korea has contributed 
significant amounts to shared priorities like Power Africa, global 
health security, and humanitarian assistance to Syria. It has increased 
its aid budget by 30 percent, a feat recently matched by the United 
Kingdom. Germany has become one of the world's leading humanitarian 
assistance donors, providing a record $2 billion in 2017 to assist 
people from places like Syria, Yemen, the Sahel, and Burma. And India, 
which not so long ago was itself a major recipient of traditional 
assistance like food aid, is boosting its contributions to key 
initiatives. Under Prime Minister Modi, India has become the fifth-
largest donor to development and reconstruction in Afghanistan.
                     domestic resource-mobilization
    Another way in which we are working to make our resources go 
further is through our support for domestic resource-mobilization 
(``DRM'') projects. Through DRM, we help strengthen the capacity of our 
partner nations to finance and lead their own development programs. The 
budget requests $75 million for strategically-managed DRM assistance. 
From the date of my nomination hearing, and nearly every day since, I 
have said I believe the purpose of foreign assistance must be ending 
its need to exist. Our assistance should be designed to empower people, 
communities, and government leaders on their journey to self-reliance 
and prosperity. These initiatives can help our partners to cut down on 
fraud, corruption, and abuse. They will also ensure that our 
investments produce sustainable results; they will ensure that our 
partners' ability to respond to the needs of their citizens will not 
fade away as our formal government support recedes gradually.
    Our DRM assistance in the nation of Georgia is a good example of 
what can be achieved. USAID provided DRM assistance of $12 million to 
Georgia over 5 years. The result was an additional $4 billion in tax 
revenue from 2005 to 2011. By 2017, revenue had increased by 800 
percent. As part of this effort, we helped streamline Georgia's customs 
process and make it easier for new businesses to register. We supported 
efforts that created an electronic tax-filing system and fixed 
crippling flaws in the Georgian tax refund process. We also took steps 
to help them cut down on corruption--encouraging ``zero tolerance'' 
policies, harsher punishments for violators, and new training programs.
    Georgia's investment in their own development also grew. Pension 
and social-welfare spending increased by 700 percent. Education 
investment grew by 1,700 percent. Their government even introduced a 
crop-insurance program. In other words, through our DRM assistance, we 
helped an important partner accelerate its own journey to self-reliance 
and prosperity.
                 strengthening humanitarian assistance
    In Yemen, 17.8 million people--the largest number in the world--are 
facing severe food insecurity. In January alone, USAID's partner the 
World Food Programme provided critical food assistance to more than 6.8 
million people. In February, after sustained high-level diplomatic 
engagement by the Department of State, USAID-funded mobile cranes 
became operational in Yemen's biggest and most critical port. These 
cranes are cutting the average time it takes to unload ships by as much 
as half, allowing food, medicine, and other necessities to reach people 
in need more quickly.
    Providing humanitarian assistance in places like Yemen is central 
to our Agency's Mission, and a clear display of American generosity. It 
is also dangerous work, as witnessed by the January terrorist attack on 
Save the Children's offices in Afghanistan, in which four of our 
partners were brutally murdered, or the 28 aid workers who were killed 
in South Sudan during 2017. Our commitment to this work is reflected by 
the inclusion of our international disaster assistance to help 
alleviate humanitarian crises in our new Mission Statement. For years, 
the responsibilities of the two offices leading the bulk of USAID's 
humanitarian assistance--Food for Peace and the Office of U.S. Foreign 
Disaster Assistance (OFDA)--have sharply increased. While they have 
often coordinated, they have worked in parallel, with separate budgets, 
separate oversight, and different strategies. When you would visit a 
camp in the field, they would be together on the ground, serving the 
same community shoulder-to-shoulder--one providing food, and the other 
tarps and blankets, often using the same partners.
    Before I arrived at USAID, the Agency commissioned an assessment of 
our humanitarian programming, conducted by an outside firm, but led by 
career staff, which concluded, not surprisingly, there were better ways 
to ensure the nimble, effective, and efficient delivery of our 
humanitarian assistance. The request before you proposes to fund all of 
USAID's humanitarian assistance from one account, and imagines a day 
when USAID's humanitarian food and non-food functions are consolidated 
into a single entity within the Agency. This will ensure a seamless 
blend of food and non-food humanitarian USAID assistance, better 
serving our foreign-policy interests and people in need. In the end, we 
will have a shared strategy, integrated programs, and joint monitoring-
and-evaluation systems that will provide greater efficiency and 
accountability for the American people. As part of our effort to 
consolidate USAID's humanitarian functions, we will also consolidate 
our whole-of-Agency efforts to strengthen partner resilience for 
improved food security. This will help break the cycle of recurrent and 
protracted crises, and reduce our own future humanitarian liabilities.
              strengthening our private-sector engagement
    Fulfilling our responsibility to taxpayers is about much more than 
asking other donors to increase their contributions, helping countries 
to finance their own development, or streamlining our humanitarian 
assistance. In our case, it also means strengthening private-sector 
engagement through true collaborations. At USAID, we are reaching 
beyond contracting and grant-making. We are exploring the possibilities 
for co-creating and co-financing programs, tools, and initiatives with 
private-sector partners. We're embracing the ingenuity and the 
entrepreneurship that private-enterprise offers, and harnessing the 
efficiencies and effectiveness that private-sector competition and 
market forces can unlock. And this is something private-enterprise is 
eager to do alongside us. Additionally, we will partner closely with 
the proposed new U.S. Development Finance Institution, which will only 
succeed through strong institutional linkages with USAID, to further 
these efforts with financing tools, and have a whole of government 
approach to private sector engagement.
    For example, in February, I met with the CEO of a large 
multinational company, and he expressed his eagerness to work with us 
in countries like South Africa, which, in part because of our work, are 
becoming more suitable for American companies to invest. This firm and 
others are eager to invest corporate funds in USAID-led initiatives, as 
well as apply entrepreneurship and enterprise-driven techniques, such 
as impact investing and blended-finance mechanisms, to development 
challenges.
    Another example is the new ``Smart Communities Coalition'' that we 
helped create alongside MasterCard to modernize assistance to refugees 
and internally displaced persons. Traditionally, when a displaced 
family first arrives at a camp or settlement, humanitarian workers do 
their best to see that they are immediately registered and provided 
modest food, water, and medical attention. Residents receive services 
from 20 or more different humanitarian aid groups, each of which uses 
their own unique method of tracking who received what service when. As 
you can imagine, this is a recipe for potential corruption and abuse.
    Our partnership with the Smart Communities Coalition will transform 
this process for more than 600,000 people. Our implementing partners at 
the camps will harness the Internet and smart-card technology to do 
their jobs more efficiently, and at a lower cost. Displaced families 
will have better access to essential services, such as power. Just as 
important, in these ``smart communities,'' we will be better able to 
track our assistance, decrease fraud and abuse, and provide services 
more quickly and cheaply. This is the power of private-enterprise 
making us better at meeting our core mission.
   procurement reform: encouraging new partners and new partnerships
    Yet another way in which we aim to make our precious funding go 
further is by using innovative procurement tools to increase 
competition among potential partners. In fiscal year 2017, around 60 
percent of USAID funding went to just 25 organizations. We are 
exploring new ways to harness new partners and ideas, and lower the 
``cost'' and barriers to entry for potential partners as they come 
forward. We are encouraging entrepreneurship and ingenuity in program 
design, building out technical expertise in areas such as small grants, 
and embracing approaches that allow us to move more quickly in crafting 
initiatives and considering submissions.
    For example, last Fall, when the Vice President announced the U.S. 
Government's intent to support persecuted religious minorities and 
other communities in Iraq, USAID was able to move from ``ideas to 
action'' by using a Broad Agency Announcement (BAA)--a tool you have 
supported that can reduce lead times, allowing us to launch a 
competitive and collaborative research and development process rapidly 
to solve a specific challenge. We immediately invited the public to 
submit their ideas for pilot projects that would support the 
resettlement of ethnic and religious minorities in their ancestral 
homes. Within 10 weeks, we reviewed more than 100 submissions, and 
invited those with the best ideas to join us at a co-creation workshop 
in Baghdad earlier this month. Coming out of the workshop, we will fund 
the most promising ideas, and, if the pilots are successful, we will 
consider ways in which they can be scaled up.
    As another example, last Fall, I announced the world's first 
Development Impact Bond (DIB) for maternal and child health--USAID's 
second overall DIB, and one of the world's largest. Under this new 
model, private capital funds the initial investment, and USAID pays if, 
and only if, the carefully defined development goal is achieved.
    In this case, we are working to strengthen maternal and newborn 
healthcare facilities in Northern India. Our partners at the UBS 
Optimus Foundation are raising capital from private investors to 
finance improvements to over 400 private health facilities. Teams at 
these 400 facilities will help appropriately train staff, and make 
life-saving equipment and medicines available. Each facility will then 
undergo a rigorous review process to ensure it has met the appropriate 
accreditation standards. If the facilities meet those standards, USAID 
and our matching partner, Merck for Mothers, will pay the UBS Optimus 
Foundation. The DIB allows us to incentivize results, and lessen 
taxpayer risk.
    I am also working to ensure that our partners operate with the 
highest level of integrity and accountability. Last month, I met with 
representatives from InterAction, the Professional Services Council, 
and United Nations agencies to make clear to our partners that USAID 
will not tolerate sexual harassment or misconduct of any kind. In 
addition, our Executive Diversity Council recently met to take up this 
important topic. Coming out of that meeting, I directed the Agency's 
senior leadership team to take mandatory sexual harassment training, 
and asked them to communicate to our partners the seriousness with 
which we take this issue. I also formed a new Action Alliance for 
Preventing Sexual Misconduct, chaired by General Counsel David Moore, 
which will undertake a thorough review of our existing policies and 
procedures to identify and close any potential gaps, while 
strengthening accountability and compliance, in consultation with our 
external partners.
               transformation: building tomorrow's usaid
    Being good stewards of taxpayer resources cannot be a one-time 
thing, or merely a set of steps aimed at a single budget. We need to 
undertake experience-informed, innovation-driven reforms to optimize 
our structures and procedures and maximize our effectiveness.
    We are now working to roll out Agency-wide projects through the 
Transformation process that will help to institutionalize some of these 
ideas. This effort began in response to an Executive order from the 
President, but, even if that had never happened, I would still have 
argued for the reforms we are planning. Over the last 8 months, I and 
others at USAID have met with Congressional Committees and personal 
offices nearly 40 times to discuss our plans. Your input, and that of 
your staff, has been invaluable to our process, and I am deeply 
appreciative of your engagement and support.
    Transformation includes many of the proposals I have shared today, 
including procurement reform, as well as streamlining our humanitarian 
assistance programing. It also includes working with the administration 
on cross-cutting government reorganization proposals, such as the new 
U.S. Development Finance Institution and the consolidation of small 
grants functions and expertise into USAID.
    To prepare for our work on Transformation, on March 9, Deputy 
Secretary of State John Sullivan wrote to inform me that USAID ``should 
initiate its own hiring processes to accommodate the Agency's staffing 
needs.'' In line with that directive, we have officially lifted our 
hiring freeze. Moving forward, we will use our Hiring and Reassignment 
Review Board to seek to align our workforce-planning with the 
administration's priorities and our plans under the Transformation.
    Another example of efforts we are undertaking through the 
Transformation are the metrics that we are developing. If the goal of 
our development assistance is to help partner countries create the 
commitment and capacity needed to take on their own development 
journey, we should focus our assistance on interventions that will best 
help them get there. We are working on metrics that will serve as 
mileposts to help us understand where our partners are going, and what 
role we might play in their journey.
    These metrics are still a work in progress, and we will continue to 
consult with you as we develop them, but, if we are successful, they 
will make our programing more effective, and our foreign policy 
priorities better informed. The same is true for all of the work that 
is taking place through the Transformation effort. All of this is in 
service of helping our partners help themselves. All of it is to 
provide the proverbial ``hand-up.'' And all of it points towards a 
world where foreign assistance is no longer needed--a world where 
people are self-reliant, prosperous, and capable of crafting their own 
bright future.
                               conclusion
    Mr. Chairman, Ranking Member, and Members of the subcommittee, I 
believe we are shaping an Agency that is capable of leveraging our 
influence, authority, and available resources to advance U.S. 
interests, transform the way we provide humanitarian and development 
assistance, and, alongside the rest of the world, help meet the 
daunting challenges we all see today. With your support and guidance, 
we will ensure USAID remains the world's premier international 
development Agency and continues the important work we do, each day, to 
protect America's future security and prosperity. Thank you for 
allowing me to speak with you today, and I welcome your questions.

    Clerk's Note: The USAID Inspector General's statement was 
requested by the subcommittee for inclusion in the hearing.
    [The statement follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Graham. Thank you.
    Senator Leahy. Mr. Chairman, because of delays I will place 
my statement in the record. I join you in welcoming the 
Administrator.
    I have to remember not to call him Congressman, but instead 
to call him Administrator Green. Both of us have known him a 
long time. I think it's great that he's leading the U.S. Agency 
for International Development. I think there's a lot that has 
to be done to improve the agency's budget request, but we will 
have further discussions on that topic shortly.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    I join Chairman Graham in welcoming Administrator Green.
    President Trump's fiscal year 2019 budget repeats most of the cuts 
in his budget request last year, which was widely criticized by 
military leaders, foreign policy experts, the international development 
and U.S. business communities, and was overwhelmingly rejected by the 
Congress.
    The President's request for fiscal year 2019 is not the budget the 
United States needs to protect and promote our interests and influence 
abroad. Nor do I believe it provides Administrator Green with the 
resources he needs to effectively carry out USAID's mission.
    In fact, this budget would erode decades of progress, including in 
increasing life expectancy and lifting people out of poverty in 
developing countries, and promoting democratic values and human rights 
around the world.
    During the more than 40 years that I have served in this body, 
there have been times when our Government failed to defend the values 
and rights we stand for.
    But I have also been encouraged by the many positive changes that 
our Government has had a key role in around the world, that have 
contributed to increasingly open societies, greater respect for human 
rights, and greater accountability and transparency in government.
    Unfortunately, those positive trends have been eclipsed by a rise 
in authoritarianism. Freedom House's recent report notes that twice as 
many countries suffered declines in political rights and civil 
liberties last year than those that made gains. This is the twelfth 
consecutive year of decline in global freedom according to their 
report. We see it in the following:

  --We see it in the rise of xenophobia in Europe;
  --In President Erdogan's [AIR DOH ON's] power grab in Turkey;
  --In President al-Sisi's crackdown on civil society and political 
        opponents in Egypt;
  --In President Putin's subversion of democracy and his foreign 
        policies of aggression;
  --In the jailing of political opponents in Venezuela and Cambodia;
  --In the assassinations of journalists and activists in Mexico, 
        Honduras, and many other countries; and
  --In the expansion of China's influence far beyond its borders.

    And what has been the U.S. response? Not a day passes without 
President Trump using social media to vilify the press, undermine the 
independence of our justice system, and slander his opponents.
    While the Obama administration could have done more to counter this 
global trend, President Trump has actively encouraged it by repeatedly 
praising dictators and abdicating our country's traditional role as a 
leader in defense of democratic values, judicial independence, and free 
expression.
    I hope this Committee will stay united, as it was in fiscal year 
2018, in opposing a return to isolationism and the abandonment of our 
country's reputation as a global leader for democratic values. But we 
need support in the executive branch.
    Administrator Green, you are being asked to justify a budget that 
falls far short of what is necessary to address the many challenges we 
face. USAID cannot do everything everywhere, but it must, at the very 
least, fight to sustain the progress we have made and to respond to new 
challenges and opportunities.
    As someone who supports what you are trying to do under difficult 
circumstances, I look forward to hearing how USAID is working to ensure 
that the United States continues to set the example the world expects 
of us.
    Thank you, Mr. Chairman.

    Senator Graham. Well, thank you. Thank you very much, Mark, 
for coming. You are a great choice. I want to compliment the 
President for selecting you. I think you'll do a good job.

                          PROPOSED BUDGET CUTS

    But the numbers don't lie. Compared to the fiscal year 2018 
enacted levels, the fiscal year 2019 budget request cuts 36.2 
percent from economic development assistance. Does that make 
sense to you?
    Mr. Green. Well, I'll say, Mr. Chairman, that I know the 
President had to balance American----
    Senator Graham. That wasn't the question. Does that make 
sense to you having been involved in this arena for a very long 
time?
    Mr. Green. Well, as I said, Mr. Chairman, this will not, 
and we don't pretend it will, meet every humanitarian need.
    Senator Graham. So we cut by 39.6 percent International 
Disaster Assistance. I think you just talked about more need. 
Twenty-three percent cut from the global health program. 
Seventeen point 3 percent cut from operating expenses.
    Do you think you can make it more efficient? Do you think 
you can save money on the operating side?
    Mr. Green. I certainly can.
    Senator Graham. Do you know where the 17.3 percent came 
from? Did anybody ask you, is this a good number on save?
    Mr. Green. No, I was not asked.
    Senator Graham. So somebody made it up. Let's see. Complex 
Crisis Fund, which is vital for the needs of fragile states, we 
cut it 100 percent. We cut 5 percent the USAID's Inspector 
General's budget.
    Regionally, cuts to Economic Development Assistance for 
East Asia and the Pacific, 49.9 percent. Listen to this one, 
Africa, 52.6 percent. Have things gotten better in Africa and I 
just missed it?
    Mr. Green. Mr. Chairman, there are great challenges in 
Africa.
    Senator Graham. Okay. So I'm setting the foundation for 
that the people who did these cuts clearly don't know what they 
are talking about. They spent zero time looking at Africa. They 
are just making up numbers to balance the budget. And I support 
them a hundred percent on military funding increases, but I 
just want the subcommittee to know that, as a Republican, I 
believe that soft power, for lack of a better term, is the key 
to winning the war as much as hard power.
    Mark, we are going to give you more money. It's going to be 
closer to last year's numbers and we expect you to do a good 
job with that money.

                         CHALLENGES USAID FACES

    What is your biggest challenge as we go forward when you 
look at the world, can you give us some indication what you 
think the two or three biggest challenges are and how could 
this subcommittee help you meet those challenges?
    Mr. Green. Mr. Chairman, great question. I think in an 
overarching way, the most significant challenge that we face is 
the displacement of communities and displacement of people 
around the world. Everywhere we look it seems from what's 
happening----
    Senator Graham. I have been told there are more displaced 
people than any time since World War II.
    Mr. Green. That's what I understand. And in South America 
we now see with Venezuelan migrants the largest out-migration 
in Latin America history.
    Our ability to reach out to those families where we have 
children being born in camps and settlements, provide them with 
basic nutrition, some semblance of education and civic 
education, to me that's a great challenge that we have to meet. 
If we fail to meet it I fear that 10 years from now and 20 
years from now we will be seeing these challenges reoccur.

                                 SYRIA

    Senator Graham. To hold Syria, somebody has to get in on 
the ground and make sure the Islamic State in Iraq and Syria 
(ISIS) doesn't come back, do you agree with that?
    Mr. Green. Well, when you say, ``somebody'', so, as you 
know, Mr. Chairman, we are providing humanitarian assistance 
around the country and we have----
    Senator Graham. So to make sure that ISIS doesn't come back 
in the area that they used to occupy you are going to need not 
only security, you are going to need a police force and army, 
right? Or they will come back. Does that make sense to you?
    Mr. Green. I do believe that----
    Senator Graham. The answer is yes. Okay.
    Yes. But they can't do their job without people like you. 
So there are $210 million that was pledged by our country to 
help reconstruct this area. That money has been taken off the 
table.
    Tell the subcommittee, in your view, how important it is 
for people like yourself, the USAID component, to be present 
when you take an area that has been completely ravaged by 
radical Islam and you are trying to hold it, what are some of 
the functions that need to happen and should we be there on the 
ground?
    Mr. Green. Mr. Chairman, I was in Raqqa maybe 2 months ago 
and had a chance to see the defined work that we were doing 
there restoring essential services, clean water, basic 
electricity, some meds, some semblance of education and I know 
that our partners in the military, CENTCOM, believed that was 
important work to solidifying victory. We enjoyed the 
opportunity of doing the work because it was, we felt, 
important and the fact that our role was carefully defined was 
also important to me. So that's work that I saw on the ground.
    Senator Graham. Well, I just want to say that the Arab 
coalition, the Arab neighbors need to pay more, the world needs 
to do more. President Trump is right to ask them to do more 
financially and other countries to commit troops. If there's no 
presence, there's no substitute for us on the ground on the 
security side and on the development side.
    So you are the right guy at the right time and I look 
forward to working with you and I appreciate you coming to the 
subcommittee.
    Senator Leahy.
    Senator Leahy. Thank you very much. It is good to see you 
again, Administrator Green. I share many of the same concerns 
as Chairman Graham.

                          PROPOSED BUDGET CUTS

    There is a glaring disconnect between this administration's 
policy documents and its budget. In your testimony you said 
that no budget can meet every need in the world, and nobody is 
going to disagree with that, but that is a false comparison.
    This budget, if enacted, would degrade USAID's ability to 
carry out its mission. We see the growing spread of extremism, 
China's expanding influence, and the scale of human 
displacement and misery today.
    There are also a number of countries, particularly fragile 
states, where USAID has a very small or no presence, while the 
State Department and DoD are making big investments.
    Congress has restored funding from cuts the President 
proposed in fiscal year 2018. Furthermore, it is not a 
legitimate argument to say we cannot support foreign assistance 
because we have domestic needs here at home. Some ask how can 
we spend 20 percent or 30 percent of our budget on foreign aid. 
However, foreign assistance actually accounts for only a 
fraction of 1 percent of the Federal budget, as you know. It's 
not 20 or 30 percent.
    And, if all goes to hell in a hand basket in any number of 
these countries, we are going to spend a great deal more as 
American taxpayers to try to put it back together. We have seen 
this in the Middle East. We have seen it in parts of Africa.

                 RECOMMENDED CHANGES TO BUDGET REQUEST

    So let me ask you this: Are there changes you would 
recommend to the fiscal year 2019 budget request? As you begin 
to implement your reorganization plans, do you need changes to 
the 2019 budget request?
    Mr. Green. We have been briefing the staff of this 
subcommittee, and others, on some of the changes that we are 
looking to make through the redesign process and the Members of 
the subcommittee have been more than helpful in feedback and 
offering ideas and suggestions. I think there are things that 
we can do.
    For example, we are very interested in elevating the role 
of humanitarian assistance and we have talked to your staffs 
about that. Combining Food for Peace and the Office of U.S. 
Foreign Disaster Assistance (OFDA) and elevating it to be led 
by an Associate Administrator. It is a way of ensuring that we 
have a strong hand, the interagency process. So that's 
certainly one thing.
    Secondly, we are strong believers in our domestic resource 
mobilization work and that's something that Members of the 
subcommittee have been very supportive of. We believe it's 
crucial, as we help countries on their journey to self-reliance 
that, A, they have skin in the game. And, B, that we can help 
them build their own capacity in revenue collection and 
budgeting and the transparency that goes along with that.
    That's certainly a change that we think would be helpful. 
But, to be honest, your staff has been very helpful to us in 
the process.
    Senator Leahy. We all agree with helping our partners 
become more self-reliant. But we also have a role.

                              LOCAL WORKS

    We have also had many very talented USAID administrators 
who wanted to transform how the Agency does business, and USAID 
has a lot of bright, talented, and motivated people who 
continue to achieve good in the world. But you are also 
weighted down by bureaucracy that sometimes lumbers along 
working with large contractors and NGOs in ways that are costly 
and not sustainable, or working with governments that are 
corrupt and unaccountable.
    I created Local Works to target funds in a sustainable way 
at the local level. I did so because despite a lot of rhetoric, 
it was not happening. Small NGOs and contractors could not 
effectively compete for USAID funds. How will your 
reorganization build upon Local Works?
    Mr. Green. Thank you, Senator. I'm a big fan of Local Works 
and the motivation and the philosophy behind it. Our 2017 
funds, 60 percent went to the largest 25 contractors. We want 
to make sure that we continue to reach out, work with small 
partners, indigenous partners, and fresh partners. And so we 
are undertaking a procurement reform as part of the redesign 
effort.
    But, most importantly, the motivations and work of Local 
Works will continue to be a key part of the way we approach our 
work. To me the journey towards self-reliance is building the 
capacity of our partners, not just governing partners, but 
civil society, NGOs, so they can eventually lead this journey 
themselves. And Local Works is certainly a key part of that. We 
think it's a good program and we want to enshrine its 
principles in our redesign effort.

           DIOXIN REMEDIATION IN VIETNAM AND FAMILY PLANNING

    Senator Leahy. I also heard you looked into the Bien Hoa 
Airbase and the dioxin remediation project we are now embarking 
on. The Secretary of Defense agrees with this effort and he's 
worked hard to be supportive.
    I'll close with one final question because time has run 
out. I'll put the rest of my questions in the record.
    I heard that at a recent meeting at the United Nations, a 
senior USAID advisor for gender equality and women's 
empowerment, at an event talking about women's health and child 
mortality, she said the U.S. is a pro-life nation. Is that 
correct? What was the context of that statement?
    Mr. Green. Senator----
    Senator Leahy. Because the administration is requesting 
$302 million for USAID family planning programs in fiscal year 
2019. That's a drop of 50 percent below the fiscal year 2018 
Omnibus level. Is that what she meant, that we are going to 
reduce funding for family planning?
    Mr. Green. First, Senator, I believe you are referencing a 
BuzzFeed article that I've heard about. I wasn't in the 
meeting. I understand that it was an off the record session. So 
I really can't comment on it.
    What I can say is that USAID supports a wide range of 
voluntary family planning methods and the budget request does 
request $302 million for such programs. And so, you know, in 
terms of actions speak louder than words, that's our approach.
    Senator Leahy. Actions speaking louder than words is a cut 
of 50 percent. Which action are you speaking of?
    Mr. Green. Last year no money was requested for these 
programs and this year we have seen $302 million requested.
    And so we do support a wide range of family planning 
methods. We believe that voluntary family planning is an 
important part of maternal health and women's empowerment.
    Senator Leahy. Thank you.
    Senator Graham. Senator Durbin.
    Senator Durbin. Administrator Green, thanks for being here. 
I particularly want to thank the Chairman of the subcommittee. 
I want to make sure he hears this, because when I say something 
nice about him, I want him to be tuned in.
    But I want to thank the Chairman of the subcommittee as 
well as the Ranking Member for basically saying we are not 
going to pay a lot of attention to the budget sent to us by the 
administration. We have a job to do. And we are going to do the 
best we can with the resources at our disposal.
    And I thank you for being here. Because as I read your 
background and get to know a little bit more about you I can 
see why you're in this job and I'm glad you are.

                               VENEZUELA

    So let me give you a challenge. Two or three weeks ago I 
was in Caracas, Venezuela for 4 days. Met with the President 
and spent the whole time trying to get an idea of what was 
happening in that country and it is a disaster. It is an 
economic disaster where the people of Venezuela stand in line, 
each one of them, each day, at ATM machines for an hour to 
withdraw the maximum amount of currency they can take out. The 
maximum amount of currency is equal to 20 cents. They need 
currency to ride the bus to their job back and forth. It is a 
disaster.
    In addition to that, it is a public health disaster. They 
are now facing epidemics in diphtheria, measles and malaria. 
Malnutrition is everywhere. You can see it on the street and 
particularly in the spindly legs and arms of the children that 
are there.
    From the governmental viewpoint it is awful. They are 
banning political parties and candidates and, unfortunately, 
determined to have a sham election on May 20.
    What can we do in the United States to deal with this 
humanitarian crisis where we know a million or more streaming 
out through Colombia if they can.
    Mr. Green. Senator, first, if I may, your remarks the other 
day on the floor, I thought, were very eloquent about the 
overlapping crises that we see facing the Venezuelan people and 
there are about 5,000 per day leaving the country. The system 
has entirely collapsed.
    What we have been doing is to provide some humanitarian 
assistance for Venezuelans who have fled. So in Colombia and 
Brazil in particular. But this is a just a drop in the bucket 
of what needs to happen, needs to occur. I was at the Summit 
and listened to some of the Caribbean nations who are also now 
starting to feel the effects, if you will, of the out-migration 
and it's going to overload their systems as well.
    So we support civil society in Venezuela. The challenge, as 
you know, in trying to provide humanitarian assistance in the 
country is the opposition of the government itself to doing so.
    So at this point, while we are able to provide assistance 
to those who have fled, and continue to support civil society, 
there are many challenges with being able to work there. But it 
is a crisis that is no longer Venezuela's alone. It is 
affecting the entire region and I agree with your prioritizing 
it. Very, very important.

                          WORLD BICYCLE RELIEF

    Senator Durbin. It is a dilemma. Let me ask you, are you 
familiar with a program known as World Bicycle Relief?
    Mr. Green. I am not.
    Senator Durbin. I thought you might have run across it in 
your service in Africa. But it is sponsored by a company in 
Chicago and if you ever----
    Mr. Green. Actually, I have heard of World Bicycle Relief, 
come to think of it.
    Senator Durbin. Well, this SRAM company, which is a leading 
American manufacturer of bicycles, has now distributed 400,000 
bicycles to underdeveloped countries. And I visit this company 
and it just lights me up what they have been able to achieve.
    And I'm going to commend this to all my colleagues here. 
Because we talk about the basics in underdeveloped countries. 
This is a transformative act to give a young girl a bicycle. 
She now can go to school and get back home and the family wants 
her to go to school because they want to keep the bicycle.
    They train mechanics to repair them and it makes a big 
difference in agriculture, in public health, in so many 
different areas. It's a modest investment in mobility. Right 
now we invest in mobility, as we should, for the disabled 
people around the world, a limited investment but we do. But I 
would like to commend to you and USAID to take a look at this. 
We will give you plenty to read. And I hope someday you can 
come to Chicago and meet the people who put it together. It's a 
remarkable program.
    Mr. Green. Senator, that's great. You know, it's 
interesting, I think we often times get caught up in the high 
end and high tech. But what you are talking about is a real 
difference in real families' lives and real opportunities. So I 
think that's great.

                            ROHINGYA CRISIS

    Senator Durbin. I also went to the Rakhine State, I 
understand you are maybe headed there yourself. And Myanmar and 
into Bangladesh----
    Mr. Green. Yes.
    Senator Durbin [continuing]. Taking a look at what's 
happening there and what one of the NGO workers told me, sadly, 
I asked, are the Rohingya the most hated people on earth? He 
said, I'm afraid they are. To be in the midst of a conversation 
with someone from Burma, use the word, Rohingya, and they stop 
you and say there's no such thing as a Rohingya. It is 
something I have never run into in my life.
    And now with a million of them in Bangladesh living in 
basic shelters, what are we doing and what more can we do?
    Mr. Green. Well, first off, Senator, as you point out, I do 
plan on going and eye-balling it and seeing it for myself. I 
have been to Burma before, but before the crisis emerged.
    So, as you know, we are providing humanitarian relief, as 
you might imagine, as we do in both Burma and in Bangladesh. 
Look, we are making it very clear to the government of Burma 
that we demand unfettered access from the outside, for the U.N. 
and others, but it is a deeply, deeply troubling situation.
    The State Department has declared ethnic cleansing at this 
point. They have not gone further. It is under review. But it 
is a very troubling situation. And it clearly is having an 
impact, not just in Burma, not just in Bangladesh, but in Sri 
Lanka and other places.
    And the monsoon season is upon us, which makes it 
particularly dangerous and these poor people are particularly 
vulnerable. And so we are doing what we can working with our 
partners.
    I know that the U.N. Security Council is soon to go there 
itself and is looking to have access to Rakhine State, but it 
is deeply troubling. And, sadly, I have seen data that bears 
out what you are saying in terms of the attitudes towards the 
Rohingya.
    Senator Durbin. They literally have concentration camps. I 
visited one in Sittwe, in Myanmar, where some before 4,000 
Rohingya have been kept behind barbed wire for 5 years. They 
cannot go out. They are guarded by soldiers with guns. It is 
unthinkable in 21st Century, but that is a fact.
    Thank you, Mr. Chairman.
    Senator Graham. I want to welcome Senator Hyde-Smith to the 
subcommittee and it is your turn.
    Senator Hyde-Smith. Thank you so much, Mr. Chairman.
    And I'm just honored to be here today, just grateful for 
this opportunity to serve on this important subcommittee and I 
look forward to working with everyone.

            INTERNATIONAL FOOD AND AGRICULTURAL DEVELOPMENT

    I was at Mississippi State University over the weekend and 
I'd like to take this opportunity to highlight and congratulate 
my good friend Mississippi State President Mark Keenum on his 
recent appointment as Chairman of the Board for International 
Food and Agricultural Development.
    Dr. Keenum has worked diligently throughout his career to 
help enhance global agricultural development and humanitarian 
needs and under his guidance Mississippi State has committed to 
working with the Federal Government and in the private sector 
to solve international problems.
    And I'm confident that this work will continue to serve our 
Nation as well. So I look forward to hearing from you about the 
agency's fiscal year 2019 budget request and, again, honored to 
be here.
    Thank you for allowing me to serve on the subcommittee. 
Appreciate you.
    Mr. Green. Senator, it's an honor to have someone with your 
background also on the subcommittee and as we go through our 
work on food security and food security reform, we look forward 
to working closely with you. And the professor you mentioned is 
a valued member of the Board for International Food and 
Agricultural Development (BIFAD), an important part of our 
work.
    Senator Hyde-Smith. Thank you.
    Senator Graham. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. And thank you 
very much, Administrator Green, for being here and for the work 
that you and everyone at USAID does on a daily basis. It is 
much appreciated.
    And I will echo the comments of Senator Durbin about 
Senators Graham and Leahy's leadership on this subcommittee and 
the commitment to support those budget for USAID that will 
further our humanitarian and development efforts around the 
world.

                            FAMILY PLANNING

    I want to ask you about the question that was raised by 
Senator Leahy relative to the comments during the annual United 
Nations Commission on the Status of Women in March. And I know 
you said you haven't read that BuzzFeed article. And I would 
urge you to read it because I think the comments there were 
outrageous.
    One of the representatives, Valerie Huber, from the 
Department of Health and Human Services, spoke of trying to get 
women to make better choices in the future, which is she was 
talking about the idea that women make bad sexual choices and 
that what happens to them is their fault.
    Before joining HHS, she was the president of Ascend, an 
association that promotes abstinence until marriage is the best 
way to prevent teen pregnancy. And she has been involved in 
stripping funding from HHS's teen pregnancy prevention program.
    Now, I think this is significant, because one of the things 
we know now is that we have the lowest teen pregnancy rate ever 
in United States history because we have provided access for 
young women and men to family planning and to health care. And 
I just want to point out, notwithstanding what you had to say 
about support for family planning--for family and women's 
programs, that a recent analysis by the Guttmacher Institute 
found that for each decrease of $10 million in U.S. funding 
416,000 fewer women and girls around the world have access to 
the full range of family planning services.
    A 124,000 more women and girls carry unintended pregnancies 
resulting in 54,000 more unplanned births. Fifty-three thousand 
more abortions would take place and 240 more maternal deaths 
would occur.
    The consequences of our outmoded policies with respect to 
how we treat women and girls and the importance of access to 
family planning information is just really seems to be 
something that this administration is unaware of.
    I would hope that we are making decisions about how to 
support women and girls around the world based on scientific 
information, not based on someone's outmoded ideas about what 
works and what doesn't work. So I wonder if you can tell me 
what we are doing to address support for women and families and 
girls around the world when it comes to access to information 
about family planning.
    Mr. Green. Thank you, Senator.
    As I mentioned in my testimony, this budget request, fiscal 
year 2019 request does include $302 million for voluntary 
family planning programs with linkages to programs involving 
AIDS, tuberculosis and malaria. And, of course, as you know, we 
continue to be the largest donor when it comes to maternal 
health, and women's health in the world and those are programs 
that are very important to us.
    With the protecting life and global health assistance 
policies in place, we feel that these monies will go forward 
and can be well spent and we will make sure that we get sound 
information out there to women around the world where we are 
working.
    Senator Shaheen. Thank you. I appreciate that. And I would 
hope that anyone who believes we should be reducing abortions 
in the world would understand the connection between access to 
that kind of information and a lower rate of abortions and a 
lower rate of number of women who die in childbirth and number 
of babies who die because they are born in an unplanned 
pregnancy. So this is--that policy is pro-life as far as I'm 
concerned.

                    RUSSIA, UKRAINE, AND THE BALKANS

    Can I ask you about Russia and Ukraine? Because USAID is a 
key partner in executing U.S. programs to help our allies on 
Russia's periphery and, particularly, in Ukraine and the 
western Balkans and other European nations that are vulnerable 
to Russia's influence. Can you talk a little bit about what we 
are doing in some of those countries?
    Mr. Green. Thank you, Senator.
    And they are closely linked in my opinion. I am often asked 
about the best way to push back on Kremlin influence and my 
answer is success on its borders.
    So helping Ukraine and the Balkans to continue to succeed, 
Ukraine and its plans to fully integrate in the Euro-Atlantic 
Alliance. In Ukraine we are helping to do capacity building and 
governance. I had a chance to meet with the head of Ukraine's 
National Bank last week as part of the World Bank meetings.
    And we are helping to strengthen their capacity, increase 
transparency and accountability. We think that's obviously very 
important.
    The key thing in the Balkans and in the Ukraine is 
strengthening their capacity and their tools in the fight 
against corruption. In my opinion, as much support as we all 
have for that part of the world for Ukraine and the Balkans, 
the window is narrow.
    They need to take on corruption. We will walk at their 
side, help them with tools and capacity building. But they need 
to make tough choices and they need strong leadership that is 
willing to be accountable and transparent to their people.
    As strong as the exuberant protestors were at the 
Euromaidan for change, if these countries don't take on 
corruption, they will see a similar exuberance and protests 
antigovernment. So it's in their interest and certainly as 
friends and supporters of a democratic Balkans and Ukraine, 
it's in our interest to help them in that journey.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Graham. Senator Lankford.
    Senator Lankford. Thank you, Mr. Chairman. Mark, it's good 
to see you again. Let me talk through a couple of things we 
need to be able to cover. I appreciate what you are doing to be 
able to take some of these things on.

                   CENTRAL AMERICA/NORTHERN TRIANGLE

    In the last appropriations bill, we included language that 
was Central America, in particular the Northern Triangle; 
Honduras, Guatemala, El Salvador setting 3, 5 and 10 years 
benchmarks for success. The focus there was we don't just spend 
money and say, look, we spend money, we don't just say, here 
are the program names that we have, but actually asking the 
question how are we measuring success and how are we partnering 
with the local governments to be able to accomplish this.
    And that, in the Northern Triangle area in specific, it's 
dealing with areas of corruption, it's dealing with economic 
development there, it's dealing with drug trafficking and 
trying to reduce the flow. The basic things that are not only 
are national security issues, but also are important to them as 
well.
    How are you going to implement this 3, 5 year, 10 year 
metrics plan to be able to start putting this into place and 
how does that compliment what you are doing worldwide to be 
able to set metrics for what you are doing?
    Mr. Green. Thanks, Senator. And I did enjoy our 
conversation very much because I think we think in similar 
terms. We should not measure our dedication by how much money 
we put in, but instead the results that we get. And those 
results should include an honest analysis of each country's 
capacity and commitment.
    If a partner country doesn't have skin in the game and they 
aren't willing to make tough choices, all the money in the 
world isn't going to get us very far. So as we develop our 
metrics, the journey to self-reliance metrics as we call them, 
we are trying to analyze both commitment and capacity. And then 
what we hope to do is align our investments in those terms.
    Specifically with respect to the Northern Triangle, I've 
had a chance to see some of our programs firsthand. I've had a 
chance to see some of our citizens' security programs in which 
we work with local mayors and police chiefs to create safe 
places for families and to enhance their tools to fight back 
against gangs and crime in particular.
    And the numbers are quite striking. We have seen a drop in 
out-migration. We have seen an improvement by most crime 
measures. So the investments are paying off. And it's something 
that's in their interest and certainly in our interest as well. 
So we support them very much.
    I'll go a little bit south of that to Peru, but I think 
there's some linkages. One of the things I did in the margins 
of the Summit of the Americas was go to take a look at some of 
our eradication and alternative livelihoods programs. And so we 
went into the jungles in Peru and, first off, I had the chance 
to actually pull out coca plants, which was an interesting 
experience in and of itself.
    I watched was how we are encouraging farmers to plant 
alternative crops; cacao, chocolate, and coffee. And also 
helping to build the capacity of local communities to create 
opportunities, educational, and economic for their young 
people. And it's a very successful program by a number of 
measures. In those places where we do both the eradication and 
the economic livelihoods, we have seen a reduction of something 
like 90 percent.
    More significantly, I think, in some ways is the program 
that we have in Peru. While a few years ago it was almost 
entirely U.S. funded, we are now the minority funder. It's two-
thirds funded by the government of Peru, which is the right 
answer as we show them these programs work and build out their 
capacity, they are taking over the funding side of it, which is 
also a great measure of success. And that is very much in line 
with the kinds of programming we'd like to do in Central 
America and elsewhere.
    Senator Lankford. Okay. I would encourage you to continue 
to be able to press that worldwide. Those are metrics that are 
harder to be able to think through at the beginning and it 
always lends towards evaluation at the end, but it helps 
everyone and it certainly shows to the American people we 
didn't just have a title and a name and a dollar that we 
committed, but here's the result of that from that aid.

                 PALESTINIAN-ISRAELI ECONOMIC ACTIVITY

    Let me switch continents with you for a moment. The issue 
about Palestinian-Israeli peace has been a longstanding issue, 
obviously 70 years at this point.
    One of the areas that we have not engaged in a lot is 
economic activity between Israelis and Palestinians where that 
is already occurring. As you know, there are multiple business 
ventures that are joint business ventures where there are 
Israelis and Palestinians working together. The Judea Samaria 
Chamber of Commerce, for instance, and multiple other areas 
where there is cooperation.
    Are there ways that we can continue to be able to partner 
where we see success happening rather than trying to create 
something and say, let's try this? To be able to find areas 
that's already working and be able to help encourage that and 
it's already functioning?
    Mr. Green. Thank you, Senator.
    We have programs that we are supporting that facilitate 
cooperation and inclusion in the areas of information 
technology, agriculture, sports and arts, civic education. I'd 
like to follow-up with you and talk more specifically about 
business creation, small business creation and building on some 
of the natural entrepreneurship that is there.
    I agree with you that those sorts of programs break down a 
lot of barriers, break down a lot of stereotypes and obviously 
link people by their common interest, their pocketbook.
    Senator Lankford. Right.
    Mr. Green. So I think they are sound programs.
    Senator Lankford. There are a lot of people here that think 
that Palestinians and Israelis are always separate and they 
never, ever talk to each other. When you actually go there and 
you meet them and they are in a shop working right next to each 
other every single day in a manufacturing location or a sales 
or whatever it may be and you find there is a lot of business 
cooperation.
    There have been some rails that have been put around the 
U.S. Government for a long time to say well we would only 
engage in that. My concern is we need to be able to bless what 
is actually working and creating more cooperation, rather than 
continue to assume that there is division.
    I'll follow up with you in the days ahead. I want to talk 
more about that and then also about how DoD and USAID in the 
same areas work together to be able to cooperate together, 
rather than compete and be able to continue to build that 
cooperation together.
    Thank you.
    Senator Graham. Senator Coons.
    Senator Coons. Thank you, Chairman Graham.
    And thank you, Administrator Green, for testifying today 
and for your continued service to our Nation over so many years 
and so many roles. I think you have made a genuine contribution 
to our country and to the world.
    Although you did not craft it, I just have to begin by 
saying it is deeply frustrating to me that yet again the Trump 
administration has ignored the will of Congress and submitted a 
budget request nearly identical to last year's request which 
was rejected robustly through a bipartisan and bicameral effort 
by Congress. Proposed cuts overall of more than 30 percent and 
in some accounts 50 percent or even a 100 percent threaten to 
reverse bipartisan progress on development and diplomacy, 
weaken our global standing and threaten our national security.
    I am grateful to Chairman Graham and Ranking Member Leahy, 
to Paul Grove and Tim Rieser of this subcommittee for their 
determined and bipartisan work to reverse these proposed cuts 
and to instead find solid footing with which we can move 
forward. So I will continue to work with my colleagues to 
support a bipartisan and robust development and diplomacy 
budget, which I think is critical for our international 
leadership and to meet the complex and multiple crises, Mr. 
Administrator, which you have already spoken to.

                          DRIVERS OF EXTREMISM

    A record number of displaced people around the world, a 
record number of man-made conflicts, a lot of fragile states 
and a lot of just appalling humanitarian crises.
    So I want to speak about a specific area of the world and 
my concern about overreliance on security assistance and 
military operations in fragile contexts, coupled with these 
proposed significant or even devastating cuts to democracy and 
development programs that address the root causes of extremism.
    As I think you know, I just returned from leading a 
bipartisan Congressional delegation to Niger, Burkina Faso, 
South Africa and Zimbabwe. On October 4 of last year four U.S. 
soldiers were killed in Niger, which may have been the first 
time most Americans were conscious that we have hundreds of 
troops in Niger.
    But we are also doing important development work and work 
to support multi-party democracy in both Niger and Burkina 
Faso.
    Now, what do you think are the real drivers of extremism in 
the Sahel and how do you think the President's proposed budget 
for USAID and the State Department will either succeed or fail 
in addressing these root causes?
    Mr. Green. Thank you, Senator.
    With respect to the Sahel, I think there are a number of 
drivers of extremism. This is an area that is prone to acute, 
climatic shocks as we've known. Recurring drought has been a 
challenge. Weak governance has been a challenge.
    What we have started to do at USAID and with the inter-
agencies is begin to take a new look at how we might approach 
the Sahel. So step number one that we have undertaken is to map 
out where we do have existing programs. We have programs, 
particularly in the area of global health, in many parts of the 
region and some of our food security programs.
    We have also had conversations, just last week, with our 
French counterparts. The French have a deep interest and long 
history in much of the Sahel. So we are exploring ways to work 
with them so that we don't duplicate, but can complement each 
other's work. Because I think our interests are largely 
aligned.
    And the same thing is true, in conversations that we have 
had with the United Kingdom's Department for International 
Development (DFID). We had a strategic dialogue with DFID not 
so long ago. But I think we are looking at programs, regional 
programs that promote economic growth, that build the capacity 
of local governments.
    But also going country by country and doing a deep dive 
analysis of what those drivers of extremism are. As you and I 
have talked about before, they are often localized factors. And 
so we want to take a smart, careful approach and try to address 
those head on.
    Senator Coons. Thank you. Let me just ask one more 
question, if I might, in the 2 minutes I have left.
    Mr. Green. Sure.

                          G5 SAHEL JOINT FORCE

    Senator Coons. To bear down on that just a little bit more, 
given the significant increase in terrorist activity, 
particularly in Burkina Faso and Niger, but over the last 5 
years in Mali as well, the administration pledged $60 million 
to support a five-country G5 Sahel ``joint force'' initiative 
on top of other security assistance, and a number of our other 
security partners you just referenced are also going to be 
engaged.
    What plans do you have for the development side of the G5 
Sahel initiative and how do we better coordinate between the 
defense side and the diplomacy and the development side, 
particularly in countries where I think the key towards making 
progress is sustaining fragile democracies and sustaining 
development progress, particularly in the north of these 
countries that tend to be isolated from the majority south of 
these countries?
    Mr. Green. I think we need to take on, as you point to, 
questions of governance, particularly youth engagement in 
governance. In many of these countries the youth bulge is 
significant. The median age is young.
    Young people see a lack of economic opportunity, but just 
as importantly, a disillusionment with governing structures and 
so I think part of the approach that we need to take is helping 
governments to engage with and listen to young people. We also 
are trying to address some of the recurring costs of climate 
shocks.
    So in a place like Ethiopia, for example, we have seen a 
lot of success in building the resilience of communities to 
withstand recurring drought. Same sorts of challenges are 
appearing throughout the region. That's an area where we are 
seeking to foster our work and strengthen it. And then, of 
course, as we have been talking about, strengthening the area 
of global health as well.
    Senator Coons. Well, I will just close by saying, I think 
there are good development stories in the region. I was struck 
that Burtina Faso has made a greater path of progress towards 
reducing HIV/AIDS prevalence than any other country on the 
continent and is sharing the burden with the United States.
    MCC Millennium Challenge Compacts have had real, positive 
impacts in these two countries and we continue to have, as you 
mentioned, both public health and power partnerships, as well 
as development partnerships with now democratically-elected 
presidents of both countries. My hope is that we will have a 
tightly articulated, developed diplomacy and development 
component to this as well as the defense side to it.
    Thank you for your testimony and for your work. And I very 
much look forward to working with Chairman Graham in making 
sure we are investing these funds wisely this coming year. 
Thank you.
    Senator Graham. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    And, Administrator Green, as I told you when we met, I'm 
pleased to see you in this position. We served together in the 
House and you made our country proud when you were Ambassador 
to Tanzania. So I'm glad to see you at the helm here.
    I do want to second the comments made by both the Chairman 
and the Ranking Member that the proposed budget for AID and the 
State Department is irresponsible. It represents a total 
retreat from American leadership in many parts of the world, in 
fact all parts of the world.

                                 SYRIA

    And I do want to ask you about the situation in Syria, 
especially in Raqqa. United States air power combined with the 
Syrian democratic forces lead primarily by the Syrian Kurds 
spent a lot of treasure and lives liberating Raqqa, did we not?
    Mr. Green. Yes.
    Senator Van Hollen. We did. And would you agree that now 
that we have succeeded in liberating Raqqa we have some 
responsibility to help stabilize the situation in Raqqa?
    Mr. Green. What I can say, Senator, is that the role that 
USAID has been playing in the stabilization front, we think, 
has been a constructive role.
    Senator Van Hollen. All right. Well, let me say it's 
important to win the war and we are still fighting, as the 
Chairman said. There's a real possibility that if we don't 
start winning the peace, at least in the place that used to be 
the capital before ISIS, that the militants will come back and 
we will lose in the long run.
    I was very disturbed to see a major piece in the Washington 
Post recently. Headline, How American Neglect Imperils the 
Victory over ISIS. I don't know if you had a chance to see 
that. Did you?
    Mr. Green. I have not.
    [The article follows:]

               [From the Washington Post, April 19, 2018]

_______________________________________________________________________

 DESTRUCTION OF RAQQA: HOW AMERICAN NEGLECT IMPERILS THE VICTORY OVER 
                                  ISIS

Six months after the militants' capital was liberated, new 
risks are emerging from Raqqa's rubble.

                       Story by Tamer El-Ghobashy

                        Photos by Alice Martins
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Every 3 or 4 days, Fatima Mahmoud hitchhikes 37 miles across a 
hilly expanse of northeastern Syria to her home town of Raqqa. She 
comes to visit her husband's final resting place, beneath a large mound 
of concrete that once was their home.
    She knows he is still there because of the unmistakable odor of his 
corpse.
    Mahmoud digs through the rubble with her hands, seeking artifacts 
of her life with him and anything of value she can sell to pay for food 
and her temporary shelter elsewhere in the province.
    ``My city has been liberated, but I can't live in it,'' she said, 
her face collapsing into sobs.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Six months after U.S.-allied forces backed by American airstrikes 
evicted the Islamic State from its self-proclaimed capital, Raqqa is a 
city sown with rubble, explosives and an uneasy mixture of despair and 
determination to rebuild.
    It is easier to count the buildings that are still standing than 
the ones that have been reduced to shattered concrete and twisted 
reinforced steel. Once home to about 400,000 people, many in high-rise 
apartments, Raqqa has become nearly unrecognizable to those who try to 
return and navigate its streets. Public squares are hidden underneath 
debris, and the tallest residential towers are mere rubble.
    The city has no running water or electricity, and there aren't 
enough public employees to defuse the hundreds of explosives planted by 
the militants as they desperately clung to the city. People often 
encounter human remains as they take stock of what's left of homes and 
businesses.
    The destruction of Raqqa and its slow recovery are contributing to 
a growing sentiment here that the United States wrecked the city but is 
unwilling to take responsibility for putting it back together.
    More than 11,000 buildings in Raqqa were destroyed, severely 
damaged or moderately damaged between February and October 2017, during 
months of U.S.-led airstrikes.

                             FEBRUARY 2017

Analysis
extent
Source: UNOSAT

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                              OCTOBER 2017

Analysis
extent
Source: UNOSAT

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The Trump administration has signaled its waning interest in 
Syria's future, with the President urging this month that U.S. troops 
be withdrawn as soon as possible. After U.S.-led airstrikes against 
Syria this month in retaliation for an alleged poison-gas attack, 
American concerns seem largely limited to the issue of chemical 
weapons.
    In late March, the White House called for a freeze on spending for 
stabilization in areas of Syria where American forces helped evict the 
Islamic State, putting on hold about $200 million pledged for the 
effort. State Department officials are scrambling to figure out which 
of their programs in northeastern Syria would be affected, said a 
senior American official who was not authorized to speak publicly about 
the issue.
    ``We continually review and reevaluate our international 
assistance,'' said Stewart Wight, a State Department spokesman. ``We 
continue to encourage our international partners to share the burden of 
providing stabilization assistance in liberated areas of Syria, as many 
U.S. allies already are.''
    Local officials warn that the U.S. objective of ridding Syria of 
the militants is being undermined by a lack of engagement in how Raqqa 
is rebuilt and governed, making it possible for another insurgency to 
emerge. And they caution that local frustration could open the door for 
the Syrian Government to return and fill the void, benefiting President 
Bashar al-Assad's main backers--Russia and Iran--and weakening American 
influence in the region.
    ``Was this devastation and death worth it?'' asked a 66-year-old 
man who lost seven family members to airstrikes. ``The more I break my 
back to rebuild, the more I think it wasn't. We suffered under [the 
Islamic State], but we're suffering more from this American 
liberation.''
    The man, a longtime restaurateur who declined to give his name 
because he was speaking critically of the city's new authorities, said 
he had already sold all the family's gold and borrowed heavily to 
rebuild his home and business. As he mixed cement outside the remains 
of his restaurant, he noted that as long as he kept his beard at the 
right length and didn't smoke in public, Islamic State militants had 
left him alone.
    The war against ISIS nearly leveled this city. Months later, crews 
are still digging bodies out.
    The Post's Tamer El-Ghobashy visited Raqqa, Syria, several months 
after U.S.-backed forces ousted Islamic State militants from their 
self-proclaimed capital. (Tamer El-Ghobashy, Joyce Lee/The Washington 
Post)
    As a launchpad for Islamic State attacks in the West, Raqqa until 
recently was practically an obsession for the United States and Europe. 
Today, the city's residents and caretakers fear they are being 
abandoned as the world's attention shifts.
    The U.S.-backed Kurdish authorities who control Raqqa are now 
focused on an escalating conflict with Turkey along Syria's northern 
border. U.S. forces are preoccupied with defeating the remaining 
pockets of Islamic State forces farther to the east along the Iraqi 
border. And the United Nations and international relief groups have put 
a priority on addressing the horrific violence in the suburbs of 
Damascus, where the Syrian Government has recaptured the long-contested 
Eastern Ghouta enclave, site of the alleged chemical attack.
    U.S. officials involved in stabilization efforts in Raqqa say work 
to restore basic services and strengthen local government is in motion 
but faces unique obstacles. Syria's central government objects to the 
activities of the Pentagon and State Department in territory beyond the 
regime's control, and that presents a host of problems that have slowed 
the delivery of aid.
    Much of the responsibility for Raqqa now falls to its 29-year-old 
acting mayor, Ahmed Ibrahim.
    The Islamic State, he recalled, ``was extremely organized, 
extremely responsive when it came to governing. This puts us under 
tremendous pressure. We have to do better than them. This is our 
challenge: How do we convince our public that we are better?''
    Dressed in a checkered, hooded lumberjack shirt that emphasized his 
youth, Ibrahim reflected on that task in his third-floor office in the 
former postal headquarters, which serves as a makeshift city hall. The 
large windows give him a panoramic view of the nearly wholesale 
destruction of the city.
    ``There is a huge risk of failing,'' he said.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    

    The view from the mayor's office in Raqqa shows heavily damaged 
     buildings and resurgent traffic as civilians return to begin 
                            reconstruction.

`More and more bodies'

    U.S. commanders have described the battle for Raqqa last year as 
some of the most intense urban combat since World War II.
    Unlike in the earlier assault on Mosul, the Islamic State's premier 
city in Iraq, U.S. forces in Syria were not fighting in support of 
allied government troops. Instead, the U.S. military set up the Syrian 
Democratic Forces as a proxy ground force. The 50,000-strong SDF was 
led by Syrian Kurdish commanders atop a rank-and-file force of Arabs 
from northeastern Syria.
    With mostly U.S. air power overhead and U.S. Special Operations 
troops embedded on the ground, the SDF launched the ground campaign in 
June. It took until October for the city to be cleared of militants.
    According to Airwars, an independent research group that tracks 
American and Russian airstrikes in Syria, U.S. aircraft and artillery 
bombarded Raqqa with an estimated 20,000 munitions during the 5-month 
operation--more than in Afghanistan during all of last year and more on 
average per month than in Mosul, a much larger city whose capture took 
nearly twice as long.
    The U.S. military has been investigating dozens of claims of 
civilian casualties in Raqqa that were caused by airstrikes and 
artillery fire and so far has confirmed 24 deaths. An Airwars analysis 
puts the number closer to 1,400.
    The Pentagon has repeatedly said that the Islamic State purposely 
put civilians in the line of fire and often tried to draw American fire 
on heavily populated areas, resulting in unintended civilian 
casualties.
    Raqqa's civil defense unit, a team of 37 firefighters and other 
first responders, has recovered more than 300 bodies since the end of 
the campaign, the vast majority of which they believe to be 
noncombatants. There are currently 6,000 open reports of human remains 
in rubble.
    ``People want to settle back into their neighborhoods and begin to 
rebuild,'' said Yasser al-Khamis, the civil defense chief. ``But 
everywhere we go, people are reporting more and more bodies.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 A young boy watches as members of Raqqa's civil defense force place a 
                       decomposed body in a bag.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

             Raqqa civil defense workers carry a body bag.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  Civil defense workers in Raqqa unload bodies from a truck at their 
headquarters on March 8. On that day, they retrieved 11 bodies from the 
                  rubble, eight of them unidentified.

Not the help they needed

    On a recent afternoon at their bullet-pocked headquarters, Khamis 
and his team were visited by bushy-bearded U.S. Special Forces 
soldiers. About 10 of them spilled out of several armored Toyota Land 
Cruisers wearing tactical vests with rifles slung over their shoulders. 
They had come to deliver good news: They would be providing two brand-
new ambulances in a couple of days.
    Khamis's men were unimpressed. They told the Americans they didn't 
need ambulances; they needed firetrucks, heavy construction equipment 
to move rubble, and power tools to pry bodies out of the contorted 
wreckage.
    A Special Forces soldier with a ``Make Army Baseball Great Again'' 
cap said he understood the challenges, but added that they had only six 
ambulances to distribute across a large swath of Syria that the United 
States is essentially administering, reaching from Raqqa in the north 
to Deir al-Zour in the south.
    ``That's all we have for now. I'm sorry,'' he told the rescuers. 
``We're doing our best, and we thank you for the important work you 
do.''
    As he spoke, a small pickup truck arrived hauling a dozen white 
body bags containing freshly recovered remains of airstrike victims. As 
family members gathered to try to identify their kin, the Special 
Forces soldiers got into their vehicles and left hastily.
    The al-Issa brothers glared at the American convoy. They had just 
looked into two body bags, identifying their father, Hussein, 66, and 
mother, Jamila, 55, by shards of distinctive clothing stuck to the 
nearly skeletal remains.
    One of the brothers launched into an angry commentary about 
American airstrikes.
    Amar al-Issa, 36, told him to shut up, that it wasn't the time for 
politics.
    The bodies had been retrieved from the wreckage of their apartment, 
destroyed in an Aug. 15 airstrike. Another brother, Mohammed, 20, was 
still missing in the rubble. Their sister Nahla, 21, was thrown into 
the street by the blast and died immediately, Amar said.
    ``Daesh had a financial office on the ground floor and my family 
lived above it,'' Amar said, using the Arabic acronym for the Islamic 
State. ``I don't know why the Americans needed a bomb to hit a 
financial office.''
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  Salim al-Hussein, 56, gestures as he describes what happened to his 
   home, which he found destroyed upon returning to Raqqa after the 
          military operation to oust Islamic State militants.

A key political operator

    Through the U.S. Agency for International Development, Washington 
has delivered an estimated $60 million across northeastern Syria for 
stabilization efforts, defined as mine clearance, rubble removal, 
repair of essential services such as water and electricity systems, and 
the reopening of schools.
    A small group of State Department officials is in Raqqa, but they 
cannot move easily because of security and diplomatic concerns, 
officials said. So U.S. Special Forces soldiers act as liaisons between 
U.S. officials and the Raqqa Civil Council, made up of Syrian Kurds and 
Arabs.
    The most recognizable member of that council has been Omar Alloush, 
an avuncular man with gray hair and a round face that belie his record 
as an energetic political operator. He has been a senior council member 
responsible for coordinating with outside agencies and governments.
    Asked in an interview what the United States has done to restore 
Raqqa since fighting ended in October, Alloush broke off speaking 
Kurdish and said in English, ``Nothing,'' underlining the word with his 
fingers.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

   Omar Alloush, a member of the Raqqa Civil Council responsible for 
coordinating with outside governments, warned that U.S. inaction could 
 leave an opening for the Syrian regime. ``The people will choose the 
 person that will fix their house for them,'' he said. (Alice Martins/
                        For The Washington Post)

    ``Well, practically nothing,'' he said, revising himself.
    Alloush complained that American funds were slow to arrive and that 
projects proposed by USAID, such as repainting curbs, were out of step 
with local needs.
    ``I told them, give me pavements first, then we'll worry about the 
curbs,'' he said. ``If we're not able to convince people in Raqqa that 
we are helping them, we are in big trouble.''
    Alloush warned that the longer the rehabilitation of the city 
takes, the greater the opening for Assad to return. ``The people will 
choose the person that will fix their house for them,'' he said.
    Few figures in northeastern Syria have been as well acquainted with 
the power politics of the country. An independent thinker, Alloush 
sought in recent months to engage with the Syrian Government in 
addition to his backers at the Pentagon and the State Department.
    But in a dramatic setback to efforts at reviving Raqqa, Alloush was 
found shot to death in his home, days after his interview with a Post 
reporter.
    SDF officials are investigating his slaying but have not identified 
any suspects.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Graffiti marks a building that has been cleared of unexploded ordnance 
in Raqqa. Most of the city is strewn with ordnance left by U.S.-allied 
 forces and improvised explosive devices left by fleeing Islamic State 
                               militants.

Risking a people's trust

    Mohammed Obeid has 16 heavy construction vehicles at his disposal 
to clear streets of detritus and eventually begin repairing water 
networks and electricity and sewage lines. A field director of the 
Early Recovery Team, a private group of Syrians funded by USAID, Obeid 
said the work had moved at a quick pace in the immediate aftermath of 
the battle.
    But lately, he said, the efforts have slowed because he must submit 
proposals to USAID for each project and wait for approval.
    The White House suspension of stabilization aid will have an 
immediate impact on operations to clear mines and explosives, the 
senior U.S. official said. De-mining buildings and streets is 
considered essential before other services can be restored and is 
particularly costly. ``If that stops, a lot of other stuff stops,'' the 
official said.
    Melissa Dalton, a Syria expert with the Center for Strategic and 
International Studies who accompanied American military and diplomatic 
officials on a trip to Raqqa in January, said the Islamic State or a 
similar militant group could take advantage if conditions do not 
improve.
    ``Any sort of goodwill on the part of the local people of Raqqa for 
the SDF and more broadly the U.S. and its allies in clearing ISIS out 
of these areas could dwindle over the next few months if there isn't a 
translation into real change,'' she said, using an acronym for the 
Islamic State.
    There is also a danger that the Kurdish authorities who took 
control of Raqqa with U.S. backing may not be fully engaged in the 
mammoth task of rebuilding the largely Arab city. As Jaafar Ahmed, a 
senior Kurdish military police official, explained, the Kurds' top 
priority at the moment is not Raqqa but rather resisting the push by 
Turkey and allied Syrian militias to oust Kurdish forces from northern 
border areas.
    People like Mahmoud, the widow whose husband's remains are still 
buried in the rubble of their home, are in the meantime feeling alone.
    Like many in Raqqa, Mahmoud lived a fairly prosperous life under 
Islamic State occupation as long as she did not run afoul of the 
group's rules. Her husband's auto-trading business provided for the 
family.
    The battle to liberate the city upended that life. Mahmoud and her 
four adult daughters paid a smuggler $2,000 to help them escape the 
city. Her husband, Abdelaziz, had promised to follow but was caught by 
Islamic State militants and forced to stay behind.
    Mahmoud doesn't know how she will survive.
    ``I've already sold all my jewelry and my daughters' jewelry,'' she 
said. ``I have nothing. I need help.''

    Senator Van Hollen. I recommend it to all the Members of 
the subcommittee. Subheading, 6 months after the militant's 
capital was liberated new risks are emerging from Raqqa's 
rubble. And the reporter talked to a lot of people on the 
ground and the take away was, and I quote, the destruction of 
Raqqa and its slow recovery are contributing to a growing 
sentiment here that the United States wrecked the city but is 
unwilling to take responsibility for putting it back together. 
And he quotes a lot of local leaders.
    Now, I know you were in Raqqa in January; is that right?
    Mr. Green. Yes. January, February.

                    STABILIZATION ASSISTANCE REVIEW

    Senator Van Hollen. January, February. Now, my 
understanding, and tell me if this has changed, that in March 
the White House called for a freeze on spending for 
stabilization areas of Syria where American forces helped evict 
the Islamic State that we put on hold $200 million pledged for 
the effort and that State Department officials are scrambling 
to figure out which of their programs in northeastern Syria 
would be affected.
    Are you familiar with the freeze?
    Mr. Green. Well, Senator, right now the administration is 
undergoing a review on stabilization assistance with respect to 
Syria, but it's important to realize this does not affect 
humanitarian assistance. We continue to provide humanitarian 
assistance in every region in the country and not only for the 
4 million Syrians inside the country, but 5\1/2\ million 
Syrians outside the country. And so we are continuing to work 
throughout the country on the humanitarian side.
    Senator Van Hollen. All right. I would just urge you, 
because to the Chairman's earlier comments, they are quoting a 
lot of leaders on the ground in Raqqa and the comment they make 
with respect to U.S. aid is it's been, the first one was it's 
been virtually invisible. And the second comment, well, barely 
visible.
    And I really worry that if we do not engage there after 
succeeding with the liberation phase that the militants would 
come back. Now, of course, our success was due to our air 
power, but also to our allies, the Syrian Democratic Forces 
lead by the Syrian Kurds, right?
    Mr. Green. I can't speak to the military operations that 
are there. I can tell you that we have had a close partnership 
with CENTCOM and the boots on the ground and our work has been 
confined to, on the stabilization side, the area in and around 
Raqqa.

                                 TURKEY

    Senator Van Hollen. I would just say while you were there, 
I believe, Turkey was engaged in offensive operations against 
the Kurds in freeing a different part of Syria, right?
    Mr. Green. That's true.
    Senator Van Hollen. Is your assessment that the Turkish 
role today is helping our efforts or hindering our efforts?
    Mr. Green. I can't speak to the military consequences. I 
can say it's a very complicated situation.
    Senator Van Hollen. Has it hindered your efforts in 
providing relief?
    Mr. Green. On the humanitarian side, we provide 
humanitarian assistance on the basis of need. So we provide 
assistance throughout the country, but certainly any time the 
security situation is uncertain, that makes it more difficult 
to do our work.
    Senator Van Hollen. I think the reality is that Turkish 
actions have essentially required the Syrian Kurds to focus on 
defending themselves from the Turks instead of finishing the 
job against ISIS and getting about the job of rebuilding there. 
And I hope this subcommittee will look carefully at that.

               REFUGEES AND INTERNALLY DISPLACED PERSONS

    Let me ask you about refugees and internally displaced 
peoples. Because, as you know, under this administration, we 
dramatically reduced the number of refugees admitted to the 
United States, even though the U.N. Refugee Agency estimates 
there are about 65 million people that have been made refugees 
around the world.
    We talked about that yesterday. And you expressed concern, 
which I share, that you've got millions of people who are 
festering in camps around the world, including lots of kids. 
Half of these refugees are kids.
    Now, what we have heard from the administration is, well, 
we want to focus on internally displaced people and keep them 
in those countries, which is a goal I share. My question to you 
is, how do we further that goal by cutting by $700 million the 
AID budget that's focused on internally displaced people?
    Mr. Green. Senator, as you might imagine, part of what we 
need to do is ask others to do more and I think other countries 
are doing more. We are seeing Japan, Germany, South Korea 
increasing their contributions.
    I think we also have to--I have to do a better job of 
making our dollars go farther and our programs as effective as 
they can possibly be.
    Senator Van Hollen. So you are okay if we cut the 
internally displaced budget at AID by $700 million?
    Mr. Green. Well, Senator, as I said, my job is to make this 
money go as far as it possibly can and as effective as it 
possibly can.
    Senator Van Hollen. I understand we want to stretch every 
dollar to its full potential.
    But, Mr. Chairman, I agree with your statements that 
cutting this account by $700 million, along with the others, is 
a real retreat.
    Senator Graham. Let me ask you this, if we gave you more 
money do you think you could use it wisely? The answer is yes.
    Mr. Green. Every dollar that you provide I will squeeze and 
make it go as far as it possibly can to serve our interests.
    Senator Graham. I appreciate efficiency. But it's 
ridiculous to cut these accounts this much given the threats we 
face.
    Senator Merkley.
    Senator Merkley. Thank you.
    Thank you, Administrator Green. Good to have you here.

                            ROHINGYA CRISIS

    I wanted to explore a little bit the situation in Burma and 
Bangladesh with the Rohingya. As you're well aware 700,000 
refugees in Bangladesh. Bangladesh deserves accolades for 
having opened their border. But everybody is in a tight spot 
now.
    One idea is to, that they are pursuing pretty actively in 
Bangladesh, is to put 100,000 people on an island and say you 
basically you can't leave, it will be patrolled. Will that be--
is that an appropriate strategy?
    Mr. Green. Senator, you know I'll be heading into the 
district myself. And I look forward to meeting with Bangladeshi 
officials to learn more about the challenges that they face, 
but clearly, as you are pointing to, they need assistance to 
help meet the costs and demands of the Rohingya population that 
is there and we certainly have been supportive.
    But we are deeply concerned, as you are, about the plight 
of the Rohingya, both certainly in Burma, but also in 
Bangladesh.
    Senator Merkley. Thank you. And I think it's important that 
America has put in a $180 million in 2017, 2018 which has been 
enormously helpful. And I'm glad you're going because it's 
really a difficult problem to solve. The sandy Cox's Bazar 
hills that they are on right now are going to be a complete 
mess as the monsoon hits. We have been working with other 
groups to administer kits to make the homes, the shelters 
stronger. But still a big challenge.
    And, meanwhile, the idea of repatriation is extremely 
difficult. In part, the military in Burma wants no part of it. 
Other ethnic groups that have been led in hatred against the 
Rohingya want no part of it. So safety for return is extremely 
difficult.
    It's going to involve international organizations having to 
be intimately involved. Is the U.S. pushing for the refugees to 
be able to return to their same villages, rebuild those same 
villages and get the protection of a government that, so far, 
has been unwilling to provide such protection?
    Mr. Green. Senator, I won't get out ahead of the State 
Department. But I think what you have seen consistently from 
both the State Department and USAID is that we support the 
voluntary, safe return of Rohingya to Burma and demand that the 
conditions be safe before they do return.
    Senator Merkley. I think everyone has concluded this will 
not happen without an extremely coordinated international 
response.
    When is our own President going to speak to the issue of 
this ethnic cleansing and bring the world together to help 
address it?
    Mr. Green. Well, I think the administration has been clear 
that we have concluded this does constitute ethnic cleansing.
    Senator Merkley. I'm asking when is our President going to 
speak to it. We have never had one word from him on this topic.
    Mr. Green. I can't speak as to what the President has said. 
I'm not aware of whether or not he has commented on the topic.
    Senator Merkley. Well, I'll make you aware then. Since you 
are not aware. That disappoints me that you are not aware 
because everyone in the State Department is aware that our 
President has not weighed in on this and that it's a huge 
missing factor.
    And that it's not just weighing in, it's rallying the world 
to address it. And I would just request, as I've asked other 
folks, please weigh in with the President to take a stand on 
this and help lead the world. This is not going to resolve 
itself and maybe after you've come back and have studied the 
situation that would be a good time to be able to brief the 
President, encourage him to take a new initiative on this.
    Mr. Green. In fairness, Secretary Tillerson has visited 
Burma. I think we have seen strong statements at the U.N. and I 
think the State Department has been very clear, again, its 
conclusion is that this constitutes ethnic cleansing. I plan on 
going myself and certainly will come back and brief the 
interagency.
    Senator Merkley. Great.
    Mr. Green. Look forward to meeting with you and to----
    Senator Merkley. And you have probably seen the reports by 
Nicholas Kristof, who went into that area. But the leader of 
Burma invited the world to come and see. And a group, five 
Members of Congress, went to see and then were denied access.
    Nicholas Kristof, from the New York Times, got in through 
subterfuge. But I hope maybe you can get permission to visit 
inside Burma these areas.
    This is what Nikki Haley had to say: Even before the 
violence started, malnutrition was a serious problem in Rakhine 
State but now there are reports from Rohingya that the 
military's actions are leading to a campaign of purposeful 
starvation forcing more families out of the country. Homes are 
being looted.
    Farmers are being denied the ability to harvest their 
crops. Girls and women are being abducted into sexual slavery.
    I'm glad that our Ambassador of the U.N. has spoken out. 
Again, it's such a horrific situation that it's important that 
the U.S. rally the world to respond.
    We all had a lot of respect for Aung San Suu Kyi in the 
past. But now she needs, really, the clarity of the world that 
this is unacceptable and it's going to take U.S. leadership.
    So I wanted to turn to the food budget. I'll echo the point 
my colleagues have made. I just returned from northern Africa 
on a four famines tour. I was only able to get two of the 
famines, plus refugee camps in Kenya, and internally displaced 
persons [IDPs] and slash refugee camps in Eastern Congo. Twenty 
million people at risk of dying.
    Are the numbers you are presenting us today your best 
judgment or are these OMB numbers on Food for Peace, zeroing 
out this program?
    Mr. Green. Senator, as I've said, we don't pretend that 
this budget will meet every single need that's out there. It's 
an effort by the administration to balance needs here at home 
with American leadership overseas.
    Again, we recognize that this does not either seize every 
development opportunity or meet every humanitarian 
consideration.
    Senator Merkley. Would you like to see this subcommittee 
give additional aid beyond the President's budget?
    Mr. Green. Well, Senator, as I've said, my obligation is to 
make sure our programs are as effective as they possibly can 
be, produce the outcomes that this subcommittee wants to see 
and that's my obligation to all of you.

           FOOD AID AND THE DEMOCRATIC REPUBLIC OF THE CONGO

    Senator Merkley. North of Goma, the Kitchanga camp, eastern 
edge of the Congo, it's the rape capital of the world. When I 
went in by helicopter, and you have to have U.N. blue helmet 
troops providing security because there are gangs rampaging 
through Eastern Congo through the villages, a ton of young men 
being abducted into the--these--into these gangs after their 
families are slaughtered.
    As I was there, there was a major distribution of food and 
they said they are doing this every month. And when I really 
pushed them, they hadn't done it in February, because they 
didn't have enough food. They hadn't done it in January, 
because there hadn't been enough food.
    Maybe if we could get a Member of Congress to go every 
month there would be monthly distributions of food. My point is 
that food was American food. That food was Public Law 480 food. 
Zeroing out that budget means putting millions of people at 
risk of starvation and I hope that we can work with you so that 
doesn't happen.
    Mr. Green. Senator, as you know, the International Disaster 
Assistance (IDA) account is a way that we can provide food 
assistance. But, again, I readily admit that this will not meet 
every need that is out there and we don't pretend that it will.
    But what you are pointing to in the Democratic Republic of 
the Congo (DRC), to me the great tragedy of the DRC is the fact 
that this is a country, very much like Venezuela, that should 
be a donor. That should be a country, because of its vast 
natural resources, it should be assisting others and yet 
because of poor governance, bad leadership, authoritarian 
leadership and human rights violations, it is what it is. And 
it's a terrible blight on the world in so many ways.
    Senator Merkley. Your point is taken. The government is 
really a vast criminal enterprise. Hard to change but we are 
pressing for elections. And, hopefully, that will give a new 
opportunity for someone to be elected who shares the desires of 
the people.

                                SOMALIA

    I was impressed, Mr. Chairman, I wanted to mention that I 
was impressed by the new President of Somalia, who is a dual 
citizen with the U.S., who is a technocrat who seems completely 
engaged in the day-to-day challenges of taking on the issues.
    And if I can indulge--can I indulge in one more minute? I 
know I'm over time.
    Senator Graham. Go ahead.
    Senator Merkley. One of the issues that we saw, that I saw 
on this trip in Somalia was Somalia has lost 80 percent of its 
forest in the last 30 years. And as I talked with the new 
President about this, he also noted that it's causing a 
microclimate problem. That is, the evaporation from the missing 
forest was the evaporation that provided additional rains. And 
so without the forest it's accentuating the climate chaos.
    What was the term you used? Climate shocks, the climate 
shocks. He also noted that the reason the forest is 
disappearing is because of the sale of charcoal, cutting down 
the forest for the sale of charcoal. This is funding al-
Shabaab. It's also funding everybody else who can make money 
off this.
    The ability to provide an alternative strategy for cooking 
fires could be a very significant factor in cutting off funding 
for al-Shabaab and cutting, slowing or stopping the 
deforestation. And this seems right up USAID's alley. They did 
have a significant program in cook stoves, efficient cook 
stoves. I think that ran its course and was retired. But I 
wanted to encourage you to take another look at it. But also to 
brainstorm more widely about how we could completely substitute 
some other strategy from cutting down trees for fuel and 
charcoal.
    Going to get trees, by the way, for the village, also 
submitting them when they leave the camps, they are submitted 
to a daily risk of assault. That is an additional piece of that 
fuel heating problem that could be addressed if there was an 
alternative strategy.
    Mr. Green. Senator, as you and I spoke briefly, in my days 
as ambassador I got a chance to see some of the USAID supported 
alternatives to charcoal programs that are out there. Jane 
Goodall, in fact, is a partner in Tanzania. We look to replace 
the weed trees that are often planted to provide the charcoal 
with revenue-producing coffee trees and other trees that do 
less damage to the soil.
    I also agree with you that Somalia is a country and a 
government that is starting to make some progress. And so I 
think we have in the government there a better partner in some 
ways. It's a young government. But I was impressed in the 
meeting that I had with the government's representatives last 
year.
    And so we are hopeful that as their capacity grows we will 
be able to partner with them in more areas to provide some 
opportunities in the areas that have now been liberated from 
al-Shabaab.
    Senator Merkley. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Graham. Appreciate, Senator Merkley, you traveling 
and all the Members of this subcommittee that try to get 
informed about the world. It's hard to do it here. Have to get 
out and about.
    Regarding the Rohingya crisis, the subcommittee provided 
resources for investigation and documentation of abuse against 
the Rohingya in the fiscal year 2018 bill. I look forward to 
that report.
    Thanks again to Mark for coming, you were very helpful. I 
appreciate your service to our country. You're the right guy at 
the right time.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are any questions for the record they need to be 
submitted no later than this Friday, April 27, 2:00 p.m. I ask 
that USAID submit testimony on their fiscal year 2019 request 
which will be made part of the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]
                 Questions Submitted to Hon. Mark Green
             Questions Submitted by Senator Lindsay Graham
    Question. The Department of State, Foreign Operations, and Related 
Programs Appropriations Act, 2018 (division K of Public Law 115-141) 
provided robust funding for USAID to restart hiring.
    What is the status of the hiring freeze at USAID? Has it been fully 
rescinded, and is USAID moving forward with respect to external hires?
    Answer. In March 2018, the U.S. Agency for International 
Development (USAID) transitioned from Secretary Tillerson's hiring 
freeze to a new strategic hiring approach that aligns our workforce-
planning with the administration's foreign-policy and budgetary 
priorities. USAID manages its workforce strategically through the 
Hiring and Reassignment Review Board (HRRB) to accommodate the Agency's 
staffing needs, including external hires. The HRRB monitors attrition 
levels, identifies gaps in the competencies of our workforce, and 
prioritizes the essential positions to fill. This corporate view 
ensures we remain within our funding levels; support our priorities; 
and recruit, retain, and deploy the talent we need.
    Question. The Fiscal Year 2018 Act directed both the Department of 
State and USAID to maintain personnel levels at not less than the end 
of 2017 level. Does USAID plan to comply with this directive?
    Answer. The U.S. Agency for International Development (USAID) is 
complying with the requirements provided in the Fiscal Year 2018 
Appropriations Act. By closely tracking onboard and attrition levels, 
USAID's Hiring and Reassignment Review Board (HRRB) prioritizes hiring 
consistent with our appropriated levels of funding and hiring needs. 
The HRRB has already approved external hiring to maintain our numbers 
of Foreign Service and Civil Service employees consistent with the 
December 2017 personnel levels, funding, and needs.
    Question. USAID has budgeted for approximately 1,650 FSOs in fiscal 
year 2019, not including Foreign Service Limited appointments 
(temporary hire). The Fiscal Year 2018 Act provided OE for at least 
1,757 FSOs in fiscal year 2018. What is USAID doing to ensure the USAID 
hires to, and maintains, the 1,757 Foreign Service personnel required 
by the Act? As USAID is a Foreign Service and national security agency, 
SFOPS is not interested in short-term hiring mechanisms but growing a 
workforce of trained FSOs to execute the USAID mission and support 
USAID's role in promoting U.S. national security.
    Answer. The U.S. Agency for International Development (USAID) is 
committed to strengthening our workforce, including the recruitment of 
new career Foreign Service Officers (FSOs) with the necessary skills to 
advance our mission. USAID has initiated the hiring process for 
bringing on a new cadre of 21 career candidate FSOs and two FSO 
reappointments in Calendar Year 2018. Based on the critical needs of 
the Agency, USAID is reviewing a roster of applicants to determine the 
makeup of a class of career candidates that will help strengthen the 
expertise across our FSO workforce.
    Question. What are the baseline personnel levels (including the 
intended mix of Foreign Service, Civil Service, and Foreign Service 
Limited positions) around which USAID is planning to execute its 
development mission in fiscal year 2019 and beyond?
    Answer. The U.S. Agency for International Development (USAID) 
relies on its comprehensive workforce-planning to identify our 
anticipated personnel needs in fiscal year 2019 for Foreign Service, 
Civil Service, and Foreign Service Limited (FSL) positions. At present, 
the Agency plans to hire to attrition and maintain the onboard levels 
as of December 31, 2017. At that time, we had 1,973 Foreign Service 
Officers (which includes 199 FSL employees) and 1,394 Civil Service 
paid for by both Program Funds and Operating Expenses (OE). Within this 
total, the Agency used OE to fund 1,757 Foreign Service Offices, 44 FSL 
appointments, and 1,302 Civil Servants. The Agency is committed to 
sustaining and supporting a strong career workforce in both the Foreign 
Service and Civil Service at the available, appropriated levels. If 
warranted to meet critical staffing needs, USAID will deploy all the 
available hiring authorities, including hiring up to the statutory cap 
of $93 million and up to 175 additional FSL hires per year .
    Question. USAID's comparative advantages are the Agency's FSOs in 
host nations who build relationships with the national, sub-national 
and local governments in which they serve. Given USAID's focus on self-
reliance and traditional role of getting countries to sustainability, 
how does USAID intend to achieve the buy-in from other nations to take 
on their own `development' and end reliance on foreign assistance if 
key specialties, such as Crisis, Stabilization, and Governance Officers 
(Backstop 76), are not being recruited to create the very structures 
and institutions, laws and policies that enable countries to achieve 
sustainability or self-reliance?
    Answer. The U.S. Agency for International Development (USAID) is 
committed to helping partner countries on their own development journey 
to self-reliance, by looking at ways to help lift lives, build 
communities, and establish self-sufficiency. Our Foreign Service 
Officers (FSO) and Foreign Service National (FSN) colleagues are 
instrumental in advancing our mission. USAID will continue to hire FSOs 
who have the necessary skills to help our counterparts in civil society 
and national, subnational, and local governments achieve our shared 
goals for development and self-reliance. As part of our comprehensive 
workforce-planning, the Agency's Hiring and Reassignment Review Board 
(HRRB) will prioritize the necessary skills. We seek to anticipate gaps 
in our core competencies, and regularly assess priority areas for 
hiring, including by identifying key FSO specialties for targeted 
recruitment. In addition, as part of comprehensive workforce-planning, 
we will make sure that we are recruiting, retaining, and empowering our 
FSNs, who provide crucial expertise and institutional memory in so many 
Missions around the world.
    Question. USAID recently went through a very thorough examination 
and vetting of 94 FSOs last year. What is the status of those hires, 
several of whom are veterans?
    Answer. In fiscal year 2018, the U.S. Agency for International 
Development (USAID) intends to make career candidate Foreign Service 
Officer (FSO) employment offers to applicants, including veterans, who 
were evaluated and vetted in previous years. Based on the critical 
needs of the Agency and the appropriated levels of funding, USAID 
reviews our roster of applicants to determine the makeup of a career 
candidate class that will help strengthen the expertise across our FSO 
workforce. The Agency has initiated the hiring process for a new cadre 
of 21 career candidate FSOs in addition to two FSO reappointments, and 
will always seek to hire the necessary career staff within our 
appropriated levels of funding, hiring needs, and national-security 
priorities.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
    Question. Administrator Green, in your testimony you referenced, 
``the consolidation of small grants function and expertise into 
USAID.'' In the President's budget request, he recommended the closure 
of the Inter-American Foundation and the African Development 
Foundation, among others, and that their functions be consolidated 
within USAID. These independent agencies were specifically created by 
Congress to provide a level of flexibility and responsiveness via 
grants that are much smaller than the average USAID grant. Would the 
closure of agencies like these not represent a reduction in U.S. 
capabilities abroad?
    Answer. To improve the efficiency, effectiveness, and alignment of 
the U.S. Government's international development efforts, the 
administration proposes integrating the Inter-American Foundation (IAF) 
and African Development Foundation (USADF) into the U.S. Agency for 
International Development (USAID). The consolidation of the small-
grants functions currently undertaken by IAF and USADF would take place 
over a 2-year transition period, which would allow for a proper merger 
of their staff and skills into USAID.
    USAID would use the existing expertise, capacity, and tools that 
USADF and IAF provide, including their regional and market-segment 
emphasis and grant-making expertise as the Agency seeks to diversify 
its partner base and invest in more local organizations. Ensuring that 
the core principles of IAF and USADF remain intact is critical to this 
proposal. Specifically, USAID would ensure these small-grant tools 
provide continuity with the current portfolios and branding of IAF and 
USADF, while working to integrate them into our operations and 
practices.
    Question. Administrator Green, you have said, ``. . . [W]e'll work 
relentlessly to ensure that we deliver assistance in the most 
effective, efficient manner possible--meeting their needs and also 
building resilience against future crises.'' As we pass a year into 
USAID's redesign, how do you ensure any such structural changes will 
strengthen humanitarian assistance? How will the reorganization at the 
agency enable it to better respond to, and prevent, today's greatest 
humanitarian challenges?
    Answer. The proposed merging of the Offices of U.S. Foreign 
Disaster Assistance (OFDA) and Food for Peace (FFP) into a new Bureau 
would eliminate the artificial distinction between food and non-food 
humanitarian assistance, create a strong platform for the humanitarian 
leadership and policy voice of the U.S. Agency for International 
Development (USAID), and optimize resources towards on effective and 
fully accountable humanitarian programs and leadership. It would 
enhance the provision of the full spectrum of humanitarian-assistance 
activities to include prevention, mitigation and the reduction of 
disaster risks, which thereby enable communities to recover from, and 
respond to, emergencies on their own, and over time reduce the need for 
humanitarian assistance, particularly in areas of recurrent crises. 
Additionally, by combining, and therefore optimizing, resources, the 
proposed new Bureau for Humanitarian Assistance would significantly 
increase USAID's operational capabilities for managing supply chains, 
procurement, and logistics, and mobilizing our rapid, field-based 
response platforms.
    The new Bureau for Resilience and Food Security (RFS) would elevate 
the agency's focus on building resilience to recurrent humanitarian 
crisis. Data show resilience programs can reduce the need for 
humanitarian assistance in regions subject to recurrent crises and 
better equip communities and countries to manage shocks like drought 
when they do occur. RFS would strengthen linkages among investments in 
resilience, agriculture, nutrition, and water and sanitation to 
accelerate and protect development gains.
    Both Bureaus would reside in the same ``family'' under a new 
Associate Administrator. These proposed redesign actions will harmonize 
and elevate USAID's ability to present and respond to humanitarian 
crisis.
    Question. Mr. Green, as you know and have said, our foreign 
assistance funds are precious as they come from ``hard-working families 
all across this great country.'' We are hearing that USAID continues to 
experience staffing challenges as well as unusual program and funding 
delays. How is USAID ensuring that the funds appropriated by Congress 
are moving quickly to the missions to help deliver assistance to those 
in need?
    Answer. I agree that it is critical that U.S. Agency for 
International Development (USAID) Missions have timely access to the 
resources they need to carry out our critical work on the ground, and 
to help advance the foreign-policy objectives of the United States. The 
Secretary of State and I are deeply committed to ensuring that our 
internal processes for allocating and obligating funding are as 
efficient as possible. We will continue to work together to identify 
opportunities to improve the timeliness of our awards, while ensuring 
our compliance with applicable Congressional procedures and other legal 
requirements.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
    Question. As you have referenced before and notwithstanding natural 
disasters and unforeseeable contingencies, the goal of foreign aid 
should be to assist countries in attaining the humanitarian and 
institutional conditions under which aid is no longer required. One of 
the ways to map a country's progress toward assistance independence is 
through Country Development Cooperation Strategies.
    Does each Country Development Cooperation Strategy include a plan 
to transition the country to independence from USAID assistance?
    What are the conditions under which a country would no longer be an 
eligible contender to receive U.S. assistance?
    Are there any countries receiving U.S. assistance now where 
independence from U.S. aid is within the five-year horizon?
    Answer. Yes, in conformance with Section 7018 of the Fiscal Year 
2016 Department of State, Foreign Operations, and Related Programs 
Appropriations Act, every U.S. Agency for International Development 
(USAID) Country Development Cooperation Strategy drafted after January 
1, 2016, includes a section on planning for a transition away from U.S. 
assistance.
    Nevertheless, USAID is moving beyond that requirement to re-define 
all of our partnerships around the concept of ``self-reliance,'' that 
is, the ability of a country to plan, finance, and implement solutions 
to solve its own development challenges. For some countries, self-
reliance remains far in the future, while for others, it is somewhat 
closer. USAID is beginning to explore how best to assess a country's 
level of self-reliance, with the aim of redefining our partnerships at 
the individual country level so we are sure we are doing the best we 
can to support an individual country to strengthen its self-reliance 
and work towards that day when assistance is no longer required.
    A country that is highly self-reliant--that is, one that is able to 
plan, finance, and implement solutions to solve its own development 
challenges--would be one where we would want to think hard about the 
nature of the partnerships we fund, and assess if traditional foreign 
assistance still makes the most sense. We will impose no hard-and-fast 
rule to determine whether a country is an appropriate recipient for 
receiving traditional development assistance. By developing an 
objective set of quantitative metrics and combining these with informed 
country-level analyses and interagency discussions, we expect to be 
able to assess each country's level of self-reliance, and subsequently 
determine whether a traditional assistance approach still makes sense 
for countries in which self-reliance is high. In such cases, this will 
likely imply changing the nature of our relationship with these 
countries over time. We would reflect these changes in our staffing and 
resource levels, and in the types of programming we fund, but rather 
than simply exiting a country, we would seek to design a way for the 
our relationship to continue in a different form.
    At this point, we are still developing our approach for measuring 
self-reliance. Once we are able to do so, the next step will be to 
formulate an approach to identify what level of self-reliance is 
appropriate for considering whether or not a traditional assistance 
partnership still makes sense, and the process for identifying what the 
most effective type of new partnership might look like.
    Question. I just recently returned from leading a congressional 
delegation to China where the long term strategic challenges and 
opportunities that country presents to the United States is very clear. 
USAID is currently engaged in Vietnam, the Philippines, and elsewhere 
in Southeast Asia. What role can USAID play in countering China's 
influence in the region?
    Answer. U.S. assistance supports a path to greater self-reliance so 
people across Asia are better-equipped to determine their own futures 
and improve their lives. With the Chinese increasingly exerting their 
influence, it is important to remain engaged and help countries access 
private foreign investment without falling into the debt-trap that is 
one of the hallmarks of the Chinese development-assistance model. Our 
work in citizen-responsible governance, which emphasizes transparency, 
accountability, and anti-corruption; our efforts to bolster trade and 
investment to accelerate inclusive growth; and our emphasis on 
environmentally and socially responsible development contribute to a 
strong foundation for host countries' self-reliance and resilience. 
Specifically, the U.S. Agency for International Development (USAID) 
provides assistance to our partner countries that helps build their 
capacity to create the enabling environment to attract, and increase 
returns on, private investments in infrastructure. This includes 
addressing the binding constraints to investments such as a weak 
regulatory environments and rule of law, constrained fiscal space, 
corruption, and inadequate human capacity, to give countries choices 
vis-a-vis China, which tends to provide loans that create unsustainable 
debt for recipient countries. USAID will also continue our support for 
activities that strengthen regional bodies such as the Association of 
Southeast Asian Nations (ASEAN) and the Asia-Pacific Economic 
Cooperation Forum (APEC) to contribute to this balanced approach to 
development.
    Question. An entire generation of Syrian children are at risk of 
losing their lives to conflict, malnutrition, and lack of education. If 
not handled properly, the environment in the region could increase the 
population of susceptible to recruitment by ISIS or other terrorist 
organizations. We know that the future legacy of Syria as a nation--as 
with any nation--depends on the education and protection of our 
children. What is being done to ensure humanitarian assistance intended 
for displaced populations in Syria reaches its target?
    Answer. Diversion is never an acceptable cost of doing business. 
The U.S. Agency for International Development (USAID) takes the loss, 
diversion, and theft of assistance--no matter the modality--very 
seriously. In increasingly non-permissive environments, such as Syria, 
USAID has developed approaches that enable us to reduce the risk of 
diversion.
    For example, USAID uses a variety of approaches to verify aid is 
reaching its intended beneficiaries, including third-party monitoring, 
geo-tagged photos and videos of distributions, and feedback hotlines 
for beneficiaries. We also work closely with our implementing partners 
and other donors, and cooperate with USAID's Inspector General to 
identify risks and take steps to mitigate the potential for the theft 
or diversion of U.S. taxpayer dollars. USAID also uses a third-party 
monitoring mechanism to increase our oversight of humanitarian-
assistance programs inside Syria. This enables the Agency to verify 
activities independently and confirm that assistance reaches the 
intended individuals. USAID is in constant communication with our 
partners to ensure our programs are reaching intended beneficiaries, 
and we remain flexible in case we need to modify our methods or 
activities to minimize safety and security concerns or the risk of 
diversion.
    Question. From your perspective, what is the most effective way to 
invest American taxpayer dollars to ensure that there is not a ``lost 
generation'' in Syria?
    Answer. The Syrian conflict is the largest and most-complex 
humanitarian emergency of our time, and is driving record levels of 
displacement. More than 11 million people are displaced within Syria, 
or have fled to neighboring countries as refugees, and 13.1 million 
people in Syria--more than 80 percent of the current population--are in 
need of humanitarian assistance. The emergence of the Islamic State of 
Iraq and Syria (ISIS) exacerbated an already-protracted crisis in 
Syria, caused by the Assad regime's unrelenting campaign of bloodshed 
and violence against its own people for more than 7 years.
    The United States is the leading donor of humanitarian assistance 
for the Syria response, having provided nearly $8.1 billion in aid 
throughout Syria and the region since the start of the crisis. This 
assistance is reaching 5 million Syrians every month, including four 
million people across all 14 Governorates inside Syria.
    One of the most-effective ways to invest American taxpayer dollars 
to avoid a ``lost generation'' in Syria is to facilitate humanitarian 
and educational programming. USAID and the Bureau of Population, 
Refugees, and Migration at the U.S. Department of State (State/PRM) 
both fund the multi-stakeholder ``No Lost Generation'' initiative, 
spearheaded by the United Nations Children's Fund, to help displaced 
children inside Syria and throughout the region access quality 
education, and to provide counseling, psychological support, and 
protection from violence and abuse. The U.S. Government funds 
humanitarian protection programs that provide learning and recreational 
opportunities for children in Syria and neighboring, refugee-hosting 
countries and case-management, referral services, and safe spaces for 
women and girls, including the survivors of gender-based violence. 
State/PRM funds child-protection and education programs for Syrian 
refugee children, which help them to enroll and stay in school instead 
of working or marrying early, and strengthens national and community-
based systems to protect children.
    Additionally, the U.S. Government finances education in communities 
throughout the region that host refugees. In Jordan, for example, USAID 
funded the enrollment of 126,097 Syrian children in formal education, 
and 1,262 previously out-of-school students in a ``catch-up'' program. 
USAID also established and equipped 28 non-formal education centers for 
out-of-school Jordanian and Syrian youth. USAID funds early-grade 
reading and math instruction through teacher guides and training, 
community reading groups, and social-media competitions to encourage 
parents and teachers to read to children.
    In Lebanon, USAID programs improve the quality of, and access to, 
basic education to improve reading outcomes for Lebanese and Syrian 
students by providing educational materials, classroom libraries and 
equipment, and teacher-training. USAID has also covered public-school 
fees to allow for the enrollment of 160,225 vulnerable students, 
including Syrian refugee children, and helped 17,000 vulnerable 
students with remedial and homework-support activities.
    Inside Syria, USAID funds the refurbishment of facilities, 
training, workshops, capacity-building for community-based 
organizations, and assessments. The Department of State has established 
child centers throughout Raqqa to provide psychosocial support and 
remedial literacy and numeracy to vulnerable children; is working with 
grassroots organizations and the Raqqa Civil Council Education 
Committee to provide light rehabilitation to schools; provides 
psychosocial-support training to teachers; builds the capacity of 
education committees and local education providers; and conducts 
educational surveys to understand the academic needs of refugee 
children with more precision.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. I know your job is to defend the administration's budget, 
but putting that aside, given China's expanding influence, the spread 
of extremism, and the scale of human displacement and misery today, how 
can we be sure that USAID is meeting these challenges as effectively as 
possible?
    Answer. The President's budget request for fiscal year 2019 
provides the necessary resources to advance peace and security, expand 
American influence, and address global crises, while making efficient 
use of taxpayer resources. For example, the budget includes significant 
support to defeat the Islamic State in Iraq and Syria (ISIS) and other 
transnational terrorist and criminal groups, advance global health, and 
provide humanitarian assistance. The budget also promotes the 
advancement of more stable, resilient, and democratic societies that 
are self-reliant, lead their own development, and contribute to a more 
secure and prosperous world, a priority for the U.S. Agency for 
International Development (USAID). The request upholds U.S. commitments 
to key partners and allies through strategic, selective investments 
that enable the United States to retain its position as a global 
leader; at the same time, it relies on other nations to make greater, 
proportionate contributions toward shared objectives.
    Our Transformation also aims to increase the effectiveness of 
USAID's programs. For example, the new Self-Reliance Metrics will help 
ensure our partnerships are supporting a country to move along in its 
journey toward the day when foreign assistance will no longer be 
necessary. For some countries, that journey could take decades; for 
others, it could take place sooner. In either case, through our focus 
on self-reliance, we will have a much clearer perspective on what 
investments we must make to create the right partnership models in the 
right places at the right time.
    With regard to Asia, USAID focuses on fostering inclusive and 
equitable growth, promoting and strengthening democratic institutions, 
and improving resilience and the management of natural resources. 
Across all of our work, we prioritize building local ownership, 
engaging private enterprise, and mobilizing additional resources from 
domestic and international sources. By helping people in the region be 
better-equipped to determine their own futures and improve their own 
lives, we are helping them deal with China's expanding influence, while 
addressing poverty and the threat of violent extremism. We can help the 
countries of Asia access foreign investment without falling into the 
debt-trap, which is one of the hallmarks of the Chinese assistance 
model. Our work on citizen-responsive governance, which promotes 
transparency, accountability, and anti-corruption; our efforts to 
bolster trade and private investment to accelerate inclusive growth; 
and our emphasis on environmentally and socially responsible 
development, are equally as important, because they contribute to a 
strong foundation for host countries' self-reliance and resilience. 
USAID will continue our support for activities that strengthen regional 
bodies, such as the Association of Southeast Asian Nations (ASEAN) and 
the Asia-Pacific Economic Cooperation Forum (APEC), to contribute to 
this balanced approach to development.
    USAID is committed to promoting and strengthening the underpinnings 
of democracy in Asia, including judicial, legislative, civil-society, 
and independent media institutions. We focus on improving political 
processes, the rule of law, respect for human rights, and promoting 
social inclusion and tolerance----measures that help prevent extremism, 
political violence, discrimination, and other drivers of conflict. For 
example, in Indonesia we are helping increase the resilience of key 
institutions and segments of society against the rise of violent 
extremism. In the Philippines, we are assisting local governments and 
host communities in Mindanao to expand services to meet the needs of 
persons internally displaced by last year's siege of the city of 
Marawi.
    The President's budget request for fiscal year 2019 supports our 
continued efforts to help Pacific island nations tap into expanded 
pools of international financing for projects that will strengthen 
their preparedness against natural disasters. These investments reduce 
the cost of future disaster-relief throughout the Pacific islands, 
including in the three Freely Associated States. In Papua New Guinea, 
USAID has enhanced the national government's ability to tap into new 
financing for projects that strengthen the country's environmental 
resilience. We are also helping prepare businesses across the Pacific 
island countries with planning to maintain the continuity of their 
operations during and after a natural disaster.
    If Asia is to realize its full potential, much depends on the 
development journey it charts today. USAID plays a vital role in 
working with people across Asia to ensure the development decisions 
they make will help achieve the region's long-term success by moving 
them forward on their journeys to self-reliance.
    Question. Now that Congress has enacted a fiscal year 2018 
appropriations bill that provides substantial funding for USAID, do you 
intend to review USAID's global presence to determine where additional 
staffing and programs may be appropriate? What if any changes do you 
anticipate making?
    Answer. The U.S. Agency for International Development (USAID) 
greatly appreciates Congress' generous support for our programs and 
operations. Yes, we will review our global presence to determine where 
might need to make changes to our staffing and programs. USAID 
regularly assesses our overseas programming and staffing levels to 
ensure we are adapting to changing circumstances, deploying our staff 
optimally, and addressing administration and Congressional priorities.
    USAID is committed to strengthening our workforce, including 
through the recruitment of new career Foreign Service Officers (FSOs), 
civil servants, and other employees with the necessary skills to 
advance our mission. USAID has initiated the hiring process to bring on 
a new cadre of 30 career candidate FSOs in fiscal year 2018. Based on 
the critical needs of the Agency, USAID is reviewing a roster of 
applicants to determine the markup of a career candidate class that 
will help strengthen the expertise across our FSO workforce. The Agency 
always seeks to hire the necessary career staff within our appropriated 
levels of funding, hiring needs, and national-security priorities.
    Question. USAID's new Mission Statement calls for the promotion of 
democratic values abroad. How will your reorganization and your vision 
for ``ending the need for foreign assistance'' respond to this?
    Answer. The ultimate goal of the U.S. Agency for International 
Development (USAID) is to work towards the day when development 
assistance is no longer necessary. To achieve this vision, one of the 
primary purposes of our ongoing Transformation is to reorient our 
strategies and programs towards the kinds of interventions that can 
create the conditions whereby our partner countries can plan, resource, 
and implement solutions to their own development challenges. My team at 
USAID and I agree that the promotion of democratic values abroad is a 
critical priority, and that the promotion of democracy, respect for 
human rights, and good governance are key foundations for the journey 
to self-reliance. This vision prioritizes programs that, at their core, 
incentivize the promotion of democratic values, including citizen-
responsive governance and economic reforms and support for the enabling 
environment and systems needed to increase domestic revenue and private 
investment, while ensuring governments expend resources transparently 
to support locally sustained, inclusive development.
    We all know that democracy, human rights, and governance (DRG) 
underpins sustainable development, and, without it, self-reliance is 
unattainable. However, in our current organizational structure, crisis 
and conflict too often overshadow DRG, and our many of our DRG 
specialists are dispersed throughout the Agency. As someone with a 
background in democracy work, I have given this careful thought, and 
have also consulted extensively with external experts, including from 
the National Democratic Institute (NDI), the National Endowment for 
Democracy, and the International Republican Institute (IRI). The 
proposed new structure for the Agency would move the DRG Center into 
the proposed Bureau for Development, Democracy, and Innovation (DDI,) 
which would be a customer-service entity to provide technical advice 
and expertise to USAID Missions in the field. Including the DRG Center 
in the DDI would provide better, field-focused support for USAID's 
programming, as well as technical and policy leadership in DRG. The 
redesigned DRG Center would also lead the Agency's learning, evidence, 
and research in DRG programming, and serve as the home for our 
Democracy and Governance Foreign Service Officers. The Center's 
placement within DDI would promote integration across sectors, as well 
as cross-Bureau and cross-Agency coordination, as it would have a 
strong, formal relationship to the Bureaus for Conflict-Prevention and 
Stabilization (CPS) and Humanitarian Assistance (HA), to ensure long-
term DRG programming and objectives inform interventions when crisis 
strikes, and that long-term programming likewise reflect changes that 
result from those situations. I believe the creation of the proposed 
Bureau for DDI will elevate DRG not only in our structure, but also in 
our program-design and country strategies.
    Another reform we are undertaking to strengthen our DRG programming 
is the introduction of our new USAID Self-Reliance Metrics. The Metrics 
include numerous democracy and governance indicators, such as the 
Varieties of Democracy Project's ``Liberal Democracy Index,'' the World 
Justice Project's ``Open Government Index, `` and civil-society 
capacity measures, which are all important tools for measuring open and 
accountable governance and the environment that faces civil society in 
each country. DRG's inclusion in these Self-Reliance Metrics will 
ensure all of USAID's strategies and programming consider democracy and 
governance.
    Our overall foreign-assistance sectoral priorities will remain 
largely the same under the Transformation. USAID is as committed as 
always to DRG, food security, global health, economic growth, conflict-
prevention, and women's equality. Within these sectors, we will strive 
to focus our programs, to the maximum extent possible, on how we 
support our partners--in government, civil society, the private sector, 
and other elements of society--to have the capabilities and tools 
needed to address, fund and manage their own development challenges. In 
this way, the results we help achieve will be sustainable long beyond 
the period of USAID's assistance.
    Question. You testified that you support Local Works. However, it 
currently comprises only $47 million of USAID's budget. What steps will 
you take to make more of USAID function like Local Works?
    Answer. Locally led development is essential for sustainability, 
and I want to thank you for your continued leadership and support in 
pushing the U.S. Agency for International Development (USAID) to invest 
more with local organizations around the world. I have made it clear 
that I prioritize working directly with local actors to enhance 
countries' path to self-reliance, and Local Works is at the center of 
the Agency's objectives in locally led development.
    As you point out, at only $47 million per year, Local Works is a 
small portion of USAID's entire portfolio. Nevertheless, we believe 
Local Works can influence the rest of the Agency by testing new 
approaches that can enhance USAID's overall ability to carry out 
programming with local implementers. Local Works offers support to 
USAID Missions that otherwise lack the resources or capacity to make 
diversifying our partner base and moving more of our agreements into 
the hands of local actors the priorities we expect them to be 
throughout the Agency. At its core, Local Works invests in the capacity 
of USAID's staff to work directly with local actors, and allows us to 
experiment and learn from the process to change the culture throughout 
the Agency, while enhancing the operations and procurements that allow 
USAID to conclude grants, cooperative agreements, and contracts 
directly with local organizations.
    At the moment, Local Works supports 16 USAID Missions. Part of this 
approach is ensuring the Missions and our staff have the knowledge, 
skills, tools, and resources to align assistance with the priorities of 
local actors; include marginalized populations; leverage local 
capacities and resources; and engage with local public- and private-
sector institutions in ways that build upon and strengthen local 
leadership, capacity, and self-reliance to sustain development over 
time. For example, USAID/Morocco has worked with five Moroccan 
organizations that are able to influence the civic-engagement 
capacities of broad networks of local partners. Local Works is also 
investing in the Mission's own ability to use local systems and 
ethnographic listening tools to inform all its investment decisions, 
from priority-setting to the design and implementation of programs. We 
hope to extend the approaches pioneered by Local Works to more Missions 
in the coming year, especially in Latin America, where Paraguay (the 
only country in which 100 percent of USAID's programs are in the hands 
of local implementers) can serve as a model, and in the implementation 
of the President's Emergency Plan for AIDS Relief.
    If Congress approves the USAID Transformation, locally led 
development would be housed under the proposed Bureau for Development, 
Democracy, and Innovation to enhance and promote USAID's capacity and 
operations to invest directly with local intermediary groups, civil-
society organizations, and citizen-centered non-profits so local actors 
manage, implement, and sustain their countries' own development. The 
Local Works and Cooperatives programs would be the main instruments to 
carry out this approach.
    Question. I have greatly appreciated the work USAID has done to 
implement the dioxin remediation project at the Da Nang Airport in 
Vietnam, which I visited. We are now embarking on a larger project to 
deal with the contamination at the Bien Hoa Airbase.
    Do you agree with me that the Bien Hoa project, like Da Nang, which 
involves an important war legacy issue that affects the health and 
safety of people in these areas today, will contribute to real 
advancements in U.S.-Vietnamese relations, including our security 
relations?
    Answer. Yes. In addition to benefiting those affected by dioxin, 
addressing war legacies, including remediating the contamination at Da 
Nang and Bien Hoa, is important to advancing relations and 
understanding between the United States and Vietnam. The Government of 
Vietnam, and its military leaders, continually point to addressing the 
legacy of war, especially dioxin-remediation, as a top priority for 
improving bilateral relations. The U.S. Agency for International 
Development (USAID) will remediate Agent Orange/dioxin at the Bien Hoa 
Airbase, and continue to provide assistance to those with disabilities, 
many of which are a consequence of the Vietnam War.
    Question. Are there any funds in your budget to help countries 
adapt to, or mitigate the effects of, climate change--whether rising 
sea levels, temperature changes that affect crop production, or the use 
of polluting fossil fuels? If we think USAID should address these 
problems, do we need to specify funds for it ourselves?
    Answer. The President's budget request for fiscal year 2019 does 
not propose funding at the U.S. Department of State and the U.S. Agency 
for International Development (USAID) for bilateral activities with 
partner countries that are specifically intended to address climate 
change. However, the President's budget request for fiscal year 2019 
does include $199.917 million for international environmental programs 
that support the administration's broader foreign-policy goals.
    USAID's Sustainable Landscapes program, which promotes the proper, 
long-term management of forests and other land in 14 countries and five 
regions, is continuing. In fiscal year 2017, Congress appropriated 
$123.5 million for Sustainable Landscapes programming, of which USAID 
received $109 million. In fiscal year 2018, Congress also appropriated 
$123.5 million for Sustainable Landscapes, of which USAID expects to 
receive a similar proportion as we did the year before. Sustainable 
Landscapes programs build local livelihoods; teach community-based 
forestry, agroforestry and other forest-friendly agricultural 
practices; generate economic growth; open opportunities for investment; 
and develop private-sector partnerships that create sustainable supply-
chains for agricultural commodities while also reducing the emission of 
greenhouse gases from deforestation and land-degradation. These 
programs are helping our partners protect well over 750,000 square 
miles of forests and other landscapes, avoiding more than 90 million 
tons of emissions in 2017 alone--the equivalent of taking 19 million 
cars off the road for a year. Healthier forests and landscapes enhance 
sustainable development, generate investment and local livelihood 
opportunities, and protect biodiversity and water resources.
    Question. In fiscal year 2018, the Senate included $893 million for 
environment and clean-energy programs, of which $725 million was for 
USAID. How does that compare to your budget request for fiscal year 
2019?
    Answer. The President's budget request for fiscal year 2019 
includes $199.917 million for international environmental programs, of 
which $134.017 million is planned for the U.S. Agency for International 
Development (USAID). The Request would fund diplomatic and development 
activities in support of the President's broader foreign-policy goals 
and strategic objectives as outlined in the National Security Strategy 
and the State Department/USAID Joint Strategic Plan.
    Question. Family Planning: The Administration is requesting $302 
million for USAID family planning programs in fiscal year 2019, which 
is more than 50 percent below the fiscal year 2018 Omnibus level.
    What would the effects of that be on women's health, child 
mortality, and the number of unwanted pregnancies and abortions--
including unsafe abortions?
    Has USAID's funding for modern contraceptives decreased under this 
administration?
    Answer. The U.S. Agency for International Development (USAID) is 
deeply committed to helping women and their children thrive. With the 
implementation plan in place for the Protecting Life in Global Health 
Assistance policy, the President's budget request for fiscal year 2019 
includes investments in voluntary family planning and reproductive 
health, consistent with the administration's support for programs to 
empower women and girls.
    Further, while the United States remains the largest donor of 
bilateral, voluntary family-planning assistance, other donors and 
countries need to assume more of the responsibility for funding these 
efforts. For example, at the 2017 London Summit on Family Planning, 14 
donors pledged $2.6 billion up to fiscal year 2020, of which we 
estimate $1.25 billion is new funding. Seventeen countries made 
domestic financing commitments, which total approximately $3.8 
billion--a growing demonstration of countries' willingness to fund 
their own programs. New partners from the private sector also made 
financial commitments to Family Planning 2020, which total almost $19 
million.
                          water and sanitation
    Question. It is difficult to think of anything that more directly 
affects people's health and quality of life than potable water and the 
safe disposal of waste. Yet billions of people lack one or the other or 
both. In fiscal year 2018 we included $400 million for these purposes--
not very much for the whole world--and the administration is proposing 
to cut that to $306 million in fiscal year 2019.
    Of all programs to cut, this seems inexplicable. Shouldn't these be 
among our highest priorities? How can people escape from poverty 
without them?
    Answer. The U.S. Agency for International Development (USAID) will 
continue to prioritize investments in water and sanitation to implement 
the Agency's Water and Development Plan under the new U.S. Global Water 
Strategy.The Plan seeks to help partner countries increase the 
availability of safe drinking water and sanitation for the underserved 
and most vulnerable, in alignment with U.S. national-security and 
foreign-policy objectives. USAID's programs in water and sanitation 
have grown, and the administration's recent budget request for the 
sector, at $306 million, is the highest since 2008. Consistent with the 
needs and opportunity criteria in the Act and USAID's Water and 
Development Plan under the U.S. Global Water Strategy, the Agency is 
committed to focusing on the countries and regions of greatest need and 
leveraging investments by other donors and the private sector to 
maximize impact.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
    Question. Administrator Green, you are responsible for implementing 
the administration's expanded Global Gag policy, which has been named 
the ``Protecting Life in Global Health Assistance'' policy. Could you 
describe for the subcommittee how this policy is meant to ``protect 
life'' when we know from the past times when the Global Gag Rule was in 
effect that it failed to reduce the number of abortions in countries 
where USAID is active?
    Answer. The United States is the world's largest bilateral donor to 
global health programs, and the U.S. Agency for International 
Development (USAID) remains committed to helping women and their 
children thrive. With the implementation plan in place for the 
Protecting Life in Global Health Assistance (PLGHA) policy, the 
President's budget request for fiscal year 2019 includes investments in 
voluntary family planning and reproductive health, consistent with the 
administration's support for programs to empower women and girls.
    The Department of State, working with USAID and the Departments of 
Health and Human Services (HHS) and Defense (DoD), conducted a review 
of the effectiveness and impact of the policy's application after 6 
months of implementation, released to Congress and the public earlier 
this year. The Department of State has worked closely with USAID, HHS, 
and DoD to implement the policy consistently, examine progress in 
carrying it out, and monitor its effects. In general, at the time of 
our review, it was too early to assess the full range of benefits and 
challenges of the policy for global health assistance. As a result, the 
Department of State will lead another interagency review, with USAID's 
full participation, to assess the implementation of the policy over the 
calendar year.
    Question. Administrator Green, I know that both you and I have had 
an opportunity to meet with Malala Yousafzai to discuss the U.S.'s role 
in championing girls' education around the world. I also understand 
that USAID is close to finalizing its new 5-year strategy for basic 
education programming. Given that, is USAID planning in its strategy to 
emphasize that 12 years of safe, free, quality education is 
instrumental in improving health and economic outcomes for school-aged 
girls?
    Answer. Investments by the American people in high-quality, 
equitable, and inclusive education around the world can have far-
reaching effects. They can create pathways for greater economic growth, 
improved health outcomes, sustained democratic governance, and more 
peaceful and resilient societies. Strengthening educational 
institutions, both public and private, in developing countries advances 
U.S. foreign-policy goals, promotes U.S. and international security, 
and helps accelerate economic growth at home and abroad.
    Girls are still especially disadvantaged in education. Hundred and 
thirty million girls are not in school worldwide, and millions more 
face barriers to staying in school. Yet we know that when girls receive 
an education, they and their families are healthier, and they have more 
opportunities to generate income.
    The Reinforcing Education Accountability in Development (READ) Act 
presents an opportunity to continue the global momentum on the 
importance of education. As mandated by the READ Act, the U.S. Agency 
for International Development (USAID) is coordinating the development 
of a five-year, whole-of-Government Comprehensive Integrated United 
States Strategy to Promote Basic Education, in consultation with nine 
other Federal Agencies and Departments. This Strategy will build on the 
spirit of the legislation to address the education needs of the most 
marginalized and vulnerable populations--including girls; children 
affected by, or emerging from, armed conflict or humanitarian crises; 
married adolescents; and victims of trafficking. The READ Act defines 
``basic education'' to include programs and activities designed to 
improve in a measurable way the results of early-childhood, pre-
primary, primary, and secondary education, delivered in formal or non-
formal settings, as well as learning for out-of-school youth and 
adults. USAID will further define its priorities and objectives within 
these areas in consultation with multiple groups of stakeholders, 
including Congress, in advance of the deadline for the delivery of the 
Strategy, on September, 2018.
    Over the past 7 years of implementing our current Strategy, USAID 
has captured and analyzed lessons learned from scaling programs and 
strengthening educational institutions. USAID's implementation of the 
READ Act will build on these lessons, while recognizing that we have an 
opportunity to be more-responsive to each country's context, to support 
public and non-public education, and to encourage partner countries to 
increase their own investments in education with domestic resources. We 
will continue to engage with Congress as we move forward in the 
finalization of the Strategy.
    Question. Administrator Green, I understand that one of the USAID 
reorganization proposals under consideration is to merge the offices 
that handle development assistance in Afghanistan and Pakistan. Do you 
anticipate that this merger will affect the allocation of resources for 
each of these countries, particularly programming to support women and 
girls?
    Answer. The proposed integration of the Office of Afghanistan and 
Pakistan Affairs into the Bureau for Asia is meant to be resource-
neutral for the Program budgets for Afghanistan and Pakistan, and 
should not affect funding for existing activities.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
    Question. In 2014 an independent group of experts, the Award Cost-
Efficiency Study (ACES) Blue Ribbon Panel, released a series of 
recommendations to increase the impact of USAID maternal and child 
health investments based on an extensive analysis of current global 
health awards. What is the status of the implementation of the Blue 
Ribbon Panel's recommendations?
    Answer. In 2014, the Award Cost-Efficiency Study (ACES) Blue Ribbon 
Advisory Panel (the Panel) issued a set of recommendations for how the 
U.S. Agency for International Development (USAID) could streamline and 
make more efficient our efforts to end preventable child and maternal 
deaths. In 2014, USAID released the first USAID Acting on the Call 
report, which responded to a key recommendation of the Panel and 
provides an update on the Agency's investments and progress. The report 
sets out a roadmap for ending preventable child and maternal deaths in 
24 priority countries, and identifies the highest-impact interventions 
in each country, measured by their ability to save lives. Since the 
launch of this initial report, USAID Missions have targeted investments 
around these high-impact interventions, with programs also informed by 
subsequent analyses focused on equity considerations and system-wide 
reforms. The 2018 edition of the Acting on the Call report provides a 
strong affirmation of several of the Panel's recommendations as it 
charts where countries are on their journey to self-reliance, with 
specific focus on finance, collaboration and transparency, while also 
calculating the return on USAID's investments.
                                 ______
                                 
            Questions Submitted by Senator Chris Van Hollen
    Question. The administration's fiscal year 2019 request for PEPFAR 
cuts over a billion dollars from U.S. efforts to combat HIV and AIDS 
around the globe. This could have an enormous impact on people living 
with HIV and AIDS worldwide, including members of the LGBTQ community. 
What are you doing to ensure the U.S. continues to serve as a leader on 
combating HIV and AIDS around the globe?
    Answer. The U.S. Agency for International Development (USAID) 
serves as a key implementing agency under the President's Emergency 
Plan for AIDS Relief (PEPFAR), managed by the U.S. Global AIDS 
Coordinator (OGAC) at the U.S. Department of State. PEPFAR will 
continue to identify efficiencies in its direct bilateral and regional 
programs to prevent, treat, and care for HIV/AIDS, including by making 
use of lower-cost drug regimens to maintain the number of patients who 
are currently on anti-retroviral therapy (ART), and in partnership with 
the Global Fund to Fight AIDS, Tuberculosis, and Malaria.
    The President's budget request for fiscal year 2019 will allow the 
United States to maintain all patients who are currently on anti-
retroviral treatment through PEPFAR, and will support the continuation 
of U.S. HIV/AIDS-relief efforts in more than 50 countries through 
direct bilateral and regional programs. Further, PEPFAR will continue 
to work toward achieving sustained control of the epidemic in 13 
priority countries with the highest burden of HIV/AIDS, which follows 
the new PEPFAR Strategy for 2017-2020.
    As of September 2017, PEPFAR--with support from USAID, the U.S. 
Departments of Defense and Health and Human Services, and other 
implementing partners--has funded life-saving ART for more than 13.3 
million people; ensured pregnant women who are living with HIV have 
given birth to 2.2 million HIV-free babies, while keeping their mothers 
healthy and alive to protect and nurture them; and provided assistance 
to more than 6.4 million orphans, vulnerable children, and their 
caregivers. We refer you to OGAC for more information.
    Question. Two hundred and sixty-four million children and youth are 
still not in school and millions more are failing to acquire even basic 
reading, writing, and numeracy skills. Despite the global need for 
education assistance, the President's fiscal year 2019 budget request 
proposes a 51 percent cut to international basic education programs. 
We'll never progress to country self-reliance unless all children are 
in school and learning. What are you doing as the Administrator of 
USAID to ensure that staff at USAID have the manpower and resources 
necessary to address what has been called the global learning crisis?
    Answer. Education is a foundation for, and driver of, development 
and the creation of resilient societies. Literate, skilled populations 
are needed to create a stronger workforce and a diversified economy, 
and to realize the long-term impact of development across all sectors.
    The U.S. Agency for International Development (USAID) has 
experienced first-hand the challenges of addressing the learning crisis 
by supporting large-scale change and improvements in educational 
institutions. USAID's current Education Strategy sets out three 
ambitious goals: improving the reading skills of students in the 
primary grades, increasing equitable access to education in crisis and 
conflict environments, and improving workforce-development and higher 
education in host countries. From 2011 to 2017, USAID-funded education 
programs directly benefited more than 83.4 million children and youth 
in nearly 50 countries. During that time, USAID education assistance 
resulted in the following:

  --69.8 million children reached with reading programs that employ 
        international best practices in instruction and evaluation;
  --New or improved education in safe learning environments for 22.6 
        million children and youth, including increased access to 
        education for 4.1 million who were previously out-of-school; 
        and
  --736,000 individuals--360,000 females and 376,000 males--gained new 
        or better employment following participation in USAID-financed 
        workforce-development programs.

    These are promising results and achievements, and we will continue 
our work in this regard. Looking forward, our goals remain to ensure 
that crisis-affected children and youth are receiving high-quality 
education that is safe, relevant, and promotes social cohesion; 
children are reading and gaining basic skills that are foundational to 
future learning and success; young people are learning the skills they 
need to gain employment and contribute to society; and higher-education 
institutions are supporting development progress across sectors. 
Finally, USAID will increasingly look to invest in programs that can 
leverage additional donor and partner resources, which is a priority of 
the administration.
    USAID will also lead the implementation within the U.S. Government 
of the Reinforcing Education Accountability in Development (READ) Act, 
including the legislation's mandate to create a Comprehensive 
Integrated United States Strategy to Promote Basic Education that will 
help to equitably expand access to basic education for marginalized 
children and vulnerable groups, expand partnerships with both public 
and non-public educational institutions, and improve measurably the 
quality of basic education and learning outcomes. After a months-long 
process of consultations, we are on track to deliver the new Strategy 
by September, 2018, as required by the READ Act.
    Question. When we fail to support girls in their transition from 
primary to secondary school, they become vulnerable to sexual 
trafficking, early marriage, teenage pregnancy, and gender-based 
violence. We know that keeping girls enrolled in school through the 
crucial transition to secondary education drastically improves their 
future prospects. As USAID embarks on a new international education 
strategy, please describe what you intend to do to ensure that girls in 
vulnerable settings are encouraged and supported to make the transition 
to secondary school.
    Answer. The U.S. Agency for International Development (USAID) takes 
a comprehensive approach to improve life outcomes for adolescent girls, 
which encompasses the interconnected events across their lives from 
birth to adulthood. The Obama administration launched the first-ever 
U.S. Global Strategy to Empower Adolescent Girls in 2016, which brought 
together four U.S. Government Departments and Agencies to tackle 
barriers that keep adolescent girls from achieving their full 
potential. As part of the Strategy, the State Department, USAID, the 
Peace Corps, and the Millennium Challenge Corporatio each has its own 
implementation plan.
    USAID's 2011 Education Strategy, extended through 2018, focuses on 
primary-grade reading, workforce-development, higher education, and 
increasing access to education for children and youth in conflict and 
crisis areas, with equality for women as a cross-cutting priority. 
USAID promotes gender-responsive education programs that reduce 
disparities between boys and girls; discourage gender-based violence 
and mitigate its harmful effects; and ensure all learners, especially 
girls, have access to safe, high-quality education programs and 
services.
    The Reinforcing Education Accountability in Development (READ) Act, 
passed by Congress in 2017, requires the development of a Comprehensive 
Integrated United States Strategy to Promote Basic Education by 
September 2018, which USAID and our interagency colleagues are on track 
to produce. The READ Act highlights the importance of reaching the most 
marginalized and vulnerable populations, including girls, children 
affected by or emerging from armed conflict or humanitarian crises, 
married adolescents, and the victims of trafficking. The legislation 
also stresses the importance of parity between girls and boys in 
learning and breaking down the specific barriers women and girls face 
to gaining a quality education. USAID is finishing a series of 
extensive consultations to develop the new Strategy, and is committed 
to ensuring the education programs we fund continue to meet the unique 
needs of girls.
    Question. There is significant room to improve engagement between 
Congress and the administration on USAID's redesign. One important area 
is in deciding the appropriate relationship between the lead diplomatic 
agency--State--and the lead development agency--USAID. The recent 
fiscal year 2019 budget request sets a goal of optimizing the 
relationship between State and USAID regarding policy, budgets, and the 
interagency.
    A number of think tanks, coalitions, and an independent bipartisan 
task force have called for the alignment of agency mission with budget 
resources. Specifically, these proposals call for USAID to control its 
budget and programming--thereby establishing clear accountability for 
development results and ending duplication with the State Department's 
Office of U.S. Foreign Assistance Resources (F).
    What would having greater policy and budget authorities mean for 
USAID as our nation's lead development agency? What options are under 
consideration?
    What is the timeline for implementation of your redesign plan and 
how are you ensuring that such a reorganization is not disruptive to 
the important day-to-day work and mission of USAID?
    Answer. One of the objectives of the Transformation at the U.S. 
Agency for International Development (USAID) is to create a stronger, 
more-coordinated voice to promote our development-policy and budget 
priorities, internally and in the interagency. USAID currently divides 
the responsibility for policy, budget, and performance among five 
different Bureaus and Independent Offices. By consolidating oversight 
for development policy, the Program and Operational Expenses budgets, 
and program-performance in the proposed Bureau for Policy, Resources, 
and Performance (PRP), USAID will be better-equipped to align our 
resources to our strategic priorities, improve accountability, promote 
evidence-based programming, and assess the Agency's progress towards 
becoming a true learning organization. It would also enable the Agency 
to more strategically and comprehensively advocate for development and 
humanitarian objectives with the U.S. Department of State and Congress.
    Under this proposal, the USAID Senior Coordinator at the Department 
of State's Bureau for Foreign Assistance (F) would report to the 
Assistant to the Administrator for PRP, to increase collaboration 
between staff in PRP and State/F who are performing similar functions 
and improve processes that better support our shared objectives in the 
design and execution of the foreign-assistance budget. The Secretary of 
State would continue to serve as the Executive Branch's overall point 
of coordination for all foreign assistance.
    After Congressional approval, USAID would implement the 
restructuring proposed in the Transformation over a period of 
approximately 24 months, in phases, according to the following 
sequence:

    1.  Restructuring the Office of the Administrator;
    2.  Merging the Office of Afghanistan and Pakistan Affairs into a 
restructured Bureau for Asia;
    3.  Restructuring the Bureau for Legislative and Public Affairs;
    4.  Merging and restructuring the Offices of U.S. Foreign Disaster 
Assistance and Food for Peace into the new Bureau for Humanitarian 
Assistance;
    5.  Merger and restructuring the Bureau for Food Security and the 
Office of Water into the new Bureau for Resilience and Food Security;
    6.  Merger and restructuring the Office of Civilian-Military 
Cooperation, Office of Transition Initiatives, and Office of Conflict-
Management and Mitigation into the new Bureau for Conflict-Prevention 
and Stabilization;
    7.  Merger and restructuring the Bureau for Policy, Planning, and 
Learning; the Office of Budget Resource Management; the Budget Division 
in the Bureau for Management; and the Office of Evaluation-Impact 
Assessment in the Global Development Lab into the new Bureau for 
Policy, Resources, and Performance;
    8.  Merger and restructuring the Bureau for Economic Growth, 
Education, and Environment; the Global Development Lab; the Office of 
Democracy, Human Rights, and Governance; and the Office of American 
Schools and Hospitals Abroad into the new Bureau for Development, 
Democracy, and Innovation; and
    9.  Merger the Independent Offices of Security, and Human Capital 
and Talent-Management into a restructured Bureau for Management.

    While the Agency undergoes this large restructuring, managers will 
receive guidance about how to manage their staff, resources, and 
programs by using best practices in change-management.
    Question. You have stated that the purpose of foreign assistance is 
to end its need to exist. I agree that U.S. development assistance 
should foster long-term self-reliance and ultimately support partner 
countries transitioning from development aid. For the last several 
years, Congress has approved appropriations bills with an important 
provision requiring all country development strategies to include a 
plan for transitioning over time away from foreign assistance.
    How are you working with Congress to approach strategic transition 
planning?
    What do you believe is the appropriate way for the U.S. Government 
to help countries move responsibly along a continuum of partnership 
with the United States?
    USAID reported recently to GAO (GAO-15-377, Pgs. 64 and 69) that it 
would develop additional metrics to assess partner-country capacity, 
ownership, and sustainability. This Committee encouraged the adoption 
of such metrics in our fiscal year 2018 SFOPS bill. Can you discuss 
your own commitment to this issue and when we can expect to see these 
new metrics finalized and incorporated into USAID's reporting and 
evaluations?
    Answer. The U.S. Agency for International Development (USAID) is 
seeking to reorient its strategies and programs to prioritize 
interventions that will create the conditions for self-reliance in 
partner countries--which means they can plan, fund, and implement 
solutions to their own development challenges. To this end, consistent 
with Section 7081 of the Department of State, Foreign Operations, and 
Related Programs Appropriations Act, 2016, every USAID Country 
Development Cooperation Strategy drafted after January 1, 2016, 
includes a section on country transition planning. An important aspect 
of this vision is the acknowledgement that, when countries have 
achieved advanced levels of self-reliance, traditional forms of 
assistance, and even USAID's traditional presence model, might no 
longer be appropriate. In such cases, USAID--in close coordination with 
Congress, the U.S. Government interagency, the national government, 
internal USAID stakeholders, and other development partners--could 
determine that a strategic transition to a new relationship, 
commensurate with that country's development progress, is needed. The 
Agency will introduce a clear and strategic process for making 
decisions on, and carrying out, transitions in these countries. In each 
case, the Agency will consult with Congress, and comply with any 
notification requirements for these transitions.
    USAID will develop targeted post-transition programs aimed at 
supporting the shift away from traditional bilateral assistance, which 
will simultaneously reflect the United States' ongoing commitment to 
partner countries as they advance towards long-term development and 
prosperity. These programs will build on, and sustain, development 
gains; amplify a country's strengths; target remaining challenges; 
leverage new partnerships and forms of assistance that are more 
appropriately suited to the country's level of self-reliance; and 
employ resources strategically to avoid and respond effectively to 
backsliding. Depending on the priorities and needs of partner 
countries, these programs might seek to expand access to finance; 
mobilize private capital; deepen trade relationships and access to 
international markets; elevate partnerships in science, technology, and 
innovation; and/or increase technical and educational exchanges.
    Strategic transitions represent only a small part of the overall 
journey to self-reliance. The ongoing USAID Transformation is seeking 
to reorient how we work with countries to engage in programming that 
will strengthen their ability to plan, finance, and manage their own 
development, with the ultimate goal of moving them towards an eventual 
strategic transition, even if that day is many years in the future. To 
support self-reliance in partner countries, USAID is prioritizing 
programs that: incentivize governance and economic reforms; strengthen 
in-country capacity; support market-based solutions to catalyze 
sustained investment; and help countries to create the enabling 
environment and systems needed to increase domestic revenue and attract 
private investment, while ensuring the transparent expenditure of 
resources to support inclusive development.
    We acknowledge that each country is at different stages, and that 
USAID's partnership approach and programmatic tools should evolve as 
countries move along the self-reliance journey. To introduce a more 
data-informed approach to tailoring our assistance for each country, 
USAID will apply objective metrics to track progress towards self-
reliance. These metrics will be our first step in better understanding 
where a partner country is on its journey to self-reliance, as well as 
in identifying its relative strengths and weaknesses. This information 
will help inform strategic planning, the mix of programmatic approaches 
and tools we could apply based on where a country is on its journey, 
and discussions related to possible strategic transitions from 
traditional forms of assistance in countries that have achieved 
advanced levels of self-reliance. USAID is making significant progress 
towards creating this tool and integrating it into our operations. 
After an 8-month consultative process, which involved both internal and 
external stakeholders and conversations with Congress, USAID recently 
finalized the identification of an initial set of primary Self-Reliance 
Metrics--17 high-level indicators that will chart a country's 
commitment and capacity to plan, finance, and manage its own 
development.
    Question. I have heard that USAID continues to experience unusual 
program and funding delays. Confusion caused by the President's budget 
request and bureaucratic delays at the State Department risk rendering 
aid less effective and causing increased suffering for people on the 
ground. What are the challenges you face in ensuring that the funds 
appropriated by Congress are moving quickly to USAID missions?
    Answer. I am deeply committed to ensuring the U.S. Agency for 
International Development (USAID) can use the funding generously 
appropriated by Congress in a timely manner that best advances our 
national interests. I will continue to look for opportunities to 
improve the Agency's internal processes, and to work with the Secretary 
of State on our joint processes, to ensure USAID Missions have timely 
access to the resources they need to advance the Agency's objectives, 
while ensuring compliance with applicable legal requirements.
    Question. The U.S. has been a leader in advancing nutrition for 
women and children around the world, both through our efforts on 
prevention of maternal and child deaths and through Feed the Future. 
Over the last decade, the U.S. has been a part of global efforts to 
recognize nutrition as a standalone development and health issue.
    How do you foresee the nutrition work to continue to be elevated 
within the proposed new structure for the Bureau for Resilience, 
Response and Recovery?
    Who will be leading the implementation of USAID's multi sectoral 
nutrition strategy?
    How will nutrition in global health and in other parts of USAID 
coordinate at headquarters and at the field level?
    Answer. The United States will always be a leader in advancing 
nutrition for women and children around the world, both through our 
efforts to prevent maternal and child deaths and through Feed the 
Future. The U.S. Agency for International Development (USAID) will 
continue to implement effective nutrition programs to prevent the long-
term effects of malnutrition, such as stunting. USAID programs will 
support evidence-based approaches to nutrition and innovations that 
will improve outcomes for the most-vulnerable populations.
    Within the new organizational structure proposed under the 
Transformation, a new Nutrition Leadership Council (NLC) and Center for 
Nutrition would elevate nutrition and strengthen nutrition results 
across USAID's development-focused multi-sectoral programming. This 
will include oversight and coordination in the areas of budget, 
strategy, technical policy and guidance and geographic targeting. While 
the NLC will not have oversight on emergency nutrition programming, it 
will support synergy and effective coordination between emergency and 
development nutrition programs as applicable.
    The NLC will be chaired by the Deputy Assistant to the 
Administrator (DAA) responsible for the Bureau for Reslience and Food 
Security (RFS) Center for Nutrition, and co-chaired by a DAA from the 
Bureau for Global Health, and the DAA from the Bureau for Humanitarian 
Assistance (HA) as the third lead council member. This new high-level, 
regular convening of DAAs across the Agency will help ensure nutrition 
continues to be an Agency-wide development priority and that our 
approach maximizes impact. The Nutrition Technical Working Group with 
representatives from RFS, GH, HA and regional bureaus will support the 
operations and decisionmaking of the NLC.
    The NLC will oversee the implementation of the USAID Multi-Sectoral 
Nutrition Strategy by BFS, GH, and HA. Nutrition staff from all 
relevant bureaus will continue to provide coordinated technical 
assistance to the Nutrition Points of Contact in the Missions and to 
establish or strengthen existing coordination to enhance multi-sectoral 
nutrition programming in the field.
    As USAID works to achieve our global nutrition goals, we will 
review programs strategically to better align with our priorities, 
while also engaging our development and host-country partners, as well 
as the private sector, to share the burden of this immense challenge. 
In addition, we will continue to support host-country stewardship of 
these nutrition priorities, both through strengthening the capacity of 
local organizations and leveraging their investments in nutrition, with 
the goal of one day transitioning these countries from their need for 
development assistance.
    Question. The fiscal year 2019 Congressional Budget Justification 
for State and Foreign Operations proposes several reforms to U.S. 
humanitarian assistance. One such proposal is to ``develop a multiyear, 
coordinated donor outreach strategy leveraging our diplomatic resources 
to target both traditional and non-traditional donors to increase their 
funding for humanitarian assistance and lessen the burden on U.S. 
taxpayers to respond, with the objective that the United States provide 
one quarter of international humanitarian assistance worldwide.''
    Can you comment in further detail on this proposal? For instance, 
do you anticipate that this will involve a significant decrease of U.S. 
funding for humanitarian assistance in the near future?
    How will the U.S. persuade and hold other donors accountable to 
contribute more funding?
    Answer. In an effort to increase the effectiveness and efficiency 
of the U.S. Government's responses to global humanitarian needs, the 
Department of State and the U.S. Agency for International Development 
(USAID) are developing a strategy for using humanitarian assistance and 
diplomatic resources to leverage other donors' contributions, maximize 
the performance of our humanitarian operations, and invest in 
resilience to reduce or prevent humanitarian needs in the future.
    The goal of this donor-outreach strategy is to leverage our 
diplomatic and financial resources to limit U.S. assistance to one-
quarter of worldwide international humanitarian resources. The strategy 
is a means for getting other governments and donors to increase their 
contributions to meet the persistent and vast humanitarian needs.
    This strategy, still under development, will likely include 
accountability plans, and rely on analysis of the data on the current 
donor landscape. It also will put a concerted emphasis on working with 
a set of donor states based on their unique profiles, to identify the 
best methods for increasing contributions from others.
    The U.S. Government's current strategies on increasing humanitarian 
financing have focused on other humanitarian donors at pledging 
conferences and, on occasion, through demarches by U.S. Ambassadors and 
Embassy staff. The White House, the Department of State, and USAID are 
committed to addressing the gaps in humanitarian financing by using 
higher-level engagement to complement our current work. We have seen 
demonstrated results from these efforts over the past year. For 
example, from July to December 2017, Australia made $30 million in 
commitments to respond to the Rohingya crisis in Burma and Bangladesh 
(one of the largest per capita commitments). At the 2017 Brussels 
Conference on Syria, donors made =5.6 billion ($6 billion) worth of 
pledges, of which two thirds, or =3.7 billion ($4 billion), came from 
the European Commission (EC) and the Member States of the European 
Union. The EC also pledged an additional =560 million ($601 million) 
for 2018 for inside Syria, Jordan, and Lebanon. Japan has also made 
numerous significant commitments in the last year. In December 2017, 
Japan announced additional humanitarian assistance of $21 million for 
Syria and its neighboring countries, and in March 2018, Japan made a 
$72.3 million contribution to the World Food Programme to provide vital 
food and nutrition assistance in 23 countries across the Middle East, 
Africa, and Asia. At the High-Level Pledging Event for the Humanitarian 
Crisis in Geneva in April, 2017, the Republic of Korea announced its 
plan to provide $4 million in humanitarian aid to Yemen.
    Question. Humanitarian organizations implementing programs with 
USAID funding face a very challenging and insecure operating 
environment in Yemen. Because of Saudi-led coalition airstrikes, ground 
fighting, and bureaucratic impediments by both the Saudis and the 
Houthis, many NGOs have begun rerouting shipments of aid south to the 
port at Aden, rather than using Hodeidah port. Rerouting aid shipments 
in this way not only increases aid delivery time, thus prolonging the 
suffering of millions of people, but it also increases costs to 
humanitarian organizations implementing programs on the ground, often 
with U.S. taxpayer funding.
    What is the administration's strategy for remedying these access 
issues, to ensure USAID dollars go as far and reach as many vulnerable 
people as possible?
    Answer. The U.S. Agency for International Development (USAID), 
through both funding and public outreach, supports efforts to ensure 
free and unfettered access to Yemen's Red Sea ports, including the 
critical port of Hodeidah, which has historically processed up to 90 
percent of humanitarian and commercial imports into the country. At 
every opportunity, the administration continues to raise with all 
parties to the conflict the imperative of unfettered humanitarian 
access into, and within Yemen.Access through Red Sea ports remains the 
most-efficient, most-effective, and safest route for delivering 
assistance, and USAID is working to improve inspections and clearances 
of cargo, while advocating for all parties to the conflict to allow the 
unhindered entry and distribution to people on need of food, medicine, 
fuel, supplies, staff, and life-saving services.
    USAID helps to fund the United Nations Verification and Inspection 
Mechanism (UNVIM), which provides a neutral, transparent clearance-and-
inspection process for vessels that arrive in ports not controlled by 
the legitimate Yemeni Government, and helps facilitate the flow of 
commercial goods essential to meeting the basic needs of the Yemeni 
people. USAID has urged UNVIM and the Saudi-led Coalition (SLC) to 
coordinate their efforts, to reduce overlapping inspections of incoming 
cargo, and speed the issuance of clearances. USAID has also encouraged 
the SLC and UNVIM to reassure commercial shippers that Red Sea ports 
are open to both commercial and humanitarian cargo, and the SLC issued 
a public announcement on April 16, 2018, to emphasize that all ports 
were open.
    Additionally, USAID's humanitarian partners continually explore the 
use of all access points into Yemen to ensure critical supplies reach 
those in need as efficiently as possible; however, using these 
alternatives creates significant challenges, including increased costs 
and the need to navigate ongoing conflict lines along transportation 
routes and blocked or damaged roads. USAID maintains its position that 
a political solution to the conflict is the only means to relieving the 
suffering of the Yemeni people, and continues to call on all parties to 
ensure unimpeded access for commercial and humanitarian goods into, and 
throughout, the country.
    Question. While the government of Bangladesh has been generous in 
receiving the huge influx of Rohingya refugees coming from Burma since 
January, we hear of significant bureaucratic constraints that are 
impeding the delivery of aid by U.S. and other international NGOs.
    How will the U.S. use its influence to ensure American NGOs are 
able to operate effectively to meet the needs of Rohingya refugees?
    Answer. Delays in issuing permits and visas for humanitarian staff 
are an operational challenge that affects all sectors of the response 
to the influx of Rohingya refugees in Bangladesh. The U.S. Government 
and the international donor community continue to press the Government 
of Bangladesh to approve permits, registrations, and visas rapidly, and 
allow unimpeded access for humanitarian staff that are responding to 
the Rohingya crisis.
    Recently, several relief agencies reported receiving approvals for 
projects from the Government of Bangladesh within a few weeks, an 
improvement from the previous processing time of several months. The 
Government of Bangladesh is working on a longer-term effort to approve 
visas, and Foreign Secretary Haque personally pledged that the Foreign 
Ministry will take over the issuance of visas from the Bureau for Non-
Governmental Organizations (NGO) Affairs and work to clear up 2,000 
pending cases to ensure access for NGO workers to Cox's Bazar and the 
refugee camps.

                          SUBCOMMITTEE RECESS

    The subcommittee stands in recess.
    [Whereupon, at 4:33 p.m., Tuesday, April 24, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
